<html>
<title> - WMD TERRORISM: ASSESSING THE CONTINUED HOMELAND THREAT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
         WMD TERRORISM: ASSESSING THE CONTINUED HOMELAND THREAT
=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2012

                               __________

                           Serial No. 112-122

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
81-131                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Brian Higgins, New York
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Kathleen C. Hochul, New York
Ben Quayle, Arizona                  Janice Hahn, California
Scott Rigell, Virginia               Ron Barber, Arizona
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                   Zachary Harris, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     4

                               Witnesses

Dr. Leonard A. Cole, Director, Program on Terror Medicine and 
  Security, University of Medicine and Dentistry of New Jersey, 
  Testifying on Behalf of the Aspen Institute:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Colonel Randall J. Larsen, USAF (Ret.), Chief Executive Officer, 
  The WMD Center:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                             For the Record

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Statement of The Aspen Institute Homeland Security Group.......     7

                                Appendix

Questions From Chairman Patrick Meehan for Leonard A. Cole.......    33
Questions From Chairman Patrick Meehan for Randall J. Larsen.....    37


         WMD TERRORISM: ASSESSING THE CONTINUED HOMELAND THREAT

                              ----------                              


                      Thursday, November 15, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 210, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Long, Higgins, Hochul, and 
Hahn.
    Also present: Representatives Pascrell and Green.
    Mr. Meehan. The Committee on Homeland Security on 
Counterterrorism and Intelligence will come to order. The 
subcommittee is meeting today to hear testimony regarding the 
on-going threat of terrorism using weapons of mass destruction.
    I would like to welcome everyone to today's hearing on the 
Subcommittee on Counterterrorism and Intelligence. I look 
forward to hearing from today's expert witnesses from the Aspen 
Institute Homeland Security Group, who are here to update the 
committee on the recommendations of the Commission on 
Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism. It is also known as the WMD Commission.
    I particularly appreciate the witnesses being here today. I 
have my own personal recollections of having been a United 
States attorney just a few days after September 11, appointed 
and being in eastern Pennsylvania, remembering that it was my 
agencies that responded to the threats in New Jersey initially, 
when they were dealing with the first threats of anthrax, an 
appreciation of how significant the impact was on our 
communities all across that region, all across the United 
States.
    It is easy to forget that just 1 week after the terror 
attacks, a bioterrorist mailed those letters containing anthrax 
spores to the offices of several news media and to two United 
States Senators.
    The toxic material infected 22 people and it took 5 lives. 
Dozens of buildings were contaminated with anthrax as a result 
of the attack. The decontamination of one postal facility took 
26 months and cost $130 million. The United States 
Environmental Protection Agency spent some $40 million to clean 
up Government buildings in Washington, DC.
    In all, at least 17 Post Offices and public offices were 
contaminated. According to the FBI, damage from the anthrax 
attacks alone cost $1 billion. Despite the loss of life, this 
was a relatively unsuccessful attack. Had the bio-agent been 
stronger, had the dispersal of the toxin been more widespread, 
or had this been a sustained campaign by a terror group or 
hostile nation state, hundreds of thousands could have possibly 
been killed, and there would have been untold billions in 
economic and infrastructure damage.
    In 2008, the Congressionally-mandated Commission on 
Prevention of WMD Proliferation and Terrorism concluded that 
unless the world community acted decisively and with great 
urgency, it is likely that a weapon of mass destruction would 
be used in a terrorist attack somewhere in the world by the end 
of 2013.
    Today that is a big part of what we want to do, is to go 
back and assess where we are today in light of those 
predictions.
    We know that former al-Qaeda leader Osama bin Laden had 
called for the development of a deployment of biological 
weapons upon his death. We also know that al-Qaeda's strategy 
against us and the West is one of death by 1,000 cuts.
    Al-Qaeda would love nothing more than to severely hamper 
the American economy with a bioterror attack. For instance, 
just before his death in 2011, American cleric Anwar al-Awlaki 
was publicly calling for such action, saying that the use of 
chemical and biological weapons against population centers is 
allowed and is strongly recommended.
    In addition to the al-Qaeda threat, we know of active WMD 
programs in Syria, Iran, and Pakistan, which could easily be 
used by hostile governments or passed to allied terrorist 
organizations in order to threaten the United States.
    Considering the political volatility in the Middle East, 
particularly in Syria, the ability of these nations to properly 
secure their chemical and biological weapon capabilities for 
hostile terror groups should also be of paramount concern to 
us.
    The threat of rogue regimes such as North Korea using such 
dangerous weapons or selling them on the black market to the 
highest bidder are both security concerns as well.
    WMD terrorism is a continuing serious threat to the 
homeland. Four years after the WMD Commission released its 
sobering assessment, the time is right for re-analysis to 
ensure that resources are being targeted wisely.
    The Aspen Institute's WMD Working Group has assessed that 
WMD terrorism is a continuing serious threat to the U.S. 
homeland. Today's hearing would hear from the institute about 
where we are and where we need to go.
    The report reminds us that some of the building blocks of 
weapons of mass destruction are appropriately and legitimately 
used in the United States for medical and other peaceful 
purposes. So we must also ensure that certain biological, 
radiological, nuclear, and chemical materials never fall into 
the hands of domestic terrorists or others who would do us 
harm.
    A host of Government agencies are already working 
diligently on numerous aspects related to international 
proliferation and security, as well as security of biological 
agents here at home.
    The intelligence community continues to engage friendly 
countries in intelligence gathering and sharing regarding 
bioterrorism, and the Department of Justice performs background 
checks on people who seek to possess certain dangerous 
pathogens, such as researchers and hazardous material drivers.
    The Department of Homeland Security has already played a 
large role in ramping up the preparedness apparatuses, and 
since 2004 has spent at least $70 million building some of the 
20 CBRN Risk Assessments.
    In March of this year, this committee marked up 
legislation. I want to particularly recognize Congressman 
Pascrell for his leadership on this issue in previous 
Congresses.
    That legislation was proposed in order to establish weapons 
of mass destruction intelligence and information-sharing 
functions at the Office of Intelligence Analysis at DHS, and to 
require dissemination of information analyzed by the Department 
to entities with responsibilities relating to homeland 
security.
    This is a threat that I take seriously, and I know this 
committee takes seriously as result of a successful CBRN attack 
and how catastrophic that would be for the homeland if that 
were to occur.
    I look forward to hearing from the distinguished panel.
    [The statement of Chairman Meehan follows:]
                  Statement of Chairman Patrick Meehan
                           November 15, 2012
    I'd like to welcome everyone to today's hearing of the Subcommittee 
on Counterterrorism and Intelligence.
    I look forward to hearing from today's expert witnesses from the 
Aspen Institute Homeland Security Group who are here to update the 
committee on the Recommendations of the Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism, also known as 
the WMD Commission.
            the anthrax attacks of 2001 and its implications
    It's easy to forget that just 1 week after the terror attacks of 
September 11, 2001, a bioterrorist mailed letters containing anthrax 
spores to the offices of several news media and two United States 
Senators. The toxic material infected 22 people and took 5 lives.
    Dozens of buildings were contaminated with anthrax as a result of 
the attack. The decontamination of one postal facility took 26 months 
and cost $130 million. The United States Environmental Protection 
Agency spent some $40 million to clean up Government buildings in 
Washington, DC. In all, at least 17 Post Offices and public office 
buildings were contaminated. According to the FBI, the damage from the 
anthrax attacks cost $1 billion.
    Despite the loss of life, this was a relatively unsuccessful 
attack. Had the bio-agent been stronger, had the dispersal of the toxin 
been more widespread, or had this been a sustained campaign by a terror 
group or hostile nation state, hundreds of thousands could have been 
killed and there would have been untold billions in economic and 
infrastructure damage.
                               the threat
    In 2008, the Congressionally-mandated Commission on the Prevention 
of WMD Proliferation and Terrorism concluded that unless the world 
community acts decisively and with great urgency, it is likely that a 
weapon of mass destruction will be used in a terrorist attack somewhere 
in the world by the end of 2013.
    We know that former al-Qaeda leader Osama bin Laden had called for 
the development and deployment of biological weapons before his death. 
We know that al-Qaeda's strategy against us and the West is one of 
``death by a thousand cuts,'' and al-Qaeda would love nothing more than 
to severely hamper the American economy with a bio-terror attack.
    For instance, just before his death in 2011 American cleric Anwar 
Awlaki was publicly calling for such action, saying, ``the use of 
chemical and biological weapons against population centers is allowed 
and is strongly recommended.''
    In addition to the al-Qaeda threat, we know of active WMD programs 
in Syria, Iran, and Pakistan, which could easily be used by hostile 
governments or passed to allied terrorist organizations in order to 
threaten the United States. Considering the political volatility in the 
Middle East, particularly in Syria, the ability of these nations to 
properly secure their chemical and biological weapon capabilities from 
hostile terror groups should also be of paramount concern for us.
    The threat of rogue regimes such a North Korea using such dangerous 
weapons or selling them on a black market to the highest bidder are 
both security concerns as well.
                            today's hearing
    WMD terrorism is a continuing and serious threat to the homeland. 
Four years after the WMD Commission released its sobering assessment, 
the time is ripe for re-analysis to ensure that resources are being 
targeted wisely.
    The Aspen Institute's WMD Working Group has assessed that WMD 
terrorism is a continuing and serious threat to the U.S. homeland. At 
today's hearing, we will hear from the Institute on where we are and 
where we need to go.
    This report reminds us that some of the building blocks for weapons 
of mass destruction are appropriately and legitimately used in the 
United States for medical and other peaceful purposes. So we must also 
ensure that certain biological, radiological, nuclear, and chemical 
materials never fall into the hands of domestic terrorists or others 
who would do us harm.
                                dhs work
    A host of Government agencies are already working diligently on 
numerous aspects related to international proliferation and security, 
as well as the security of biological agents here at home.
    For instance, the intelligence community continues to engage 
friendly countries in intelligence gathering and sharing regarding 
bioterrorism and the Department of Justice performs background checks 
on people who seek to possess certain dangerous pathogens, such as 
researchers and hazardous material drivers.
    The Department of Homeland Security (DHS) has also played a large 
role on ramping up the preparedness apparatus and since 2004 has spent 
at least $70 million developing more than 20 CBRN risk assessments.
                        legislation & conclusion
    In March of this year, this committee marked up legislation I 
proposed in order to establish weapons of mass destruction intelligence 
and information-sharing functions of the Office of Intelligence and 
Analysis at DHS and to require dissemination of information analyzed by 
the Department to entities with responsibilities relating to homeland 
security.
    This is a threat that I take very seriously, as the results of a 
successful CBRN attack on the homeland would be catastrophic.
    I look forward to hearing from this distinguished panel and I now 
recognize the Ranking Member of the subcommittee Mr. Higgins for any 
opening remarks he would like to make.

    Mr. Meehan. I now recognize the Ranking Member of the 
subcommittee, Mr. Higgins, for any opening remarks that he 
would like to make.
    Mr. Higgins. Thank you, Mr. Chairman. Before I provide an 
opening statement, I would ask unanimous consent for Mr. 
Pascrell from New Jersey to sit for questioning on this 
subcommittee hearing.
    Mr. Meehan. Without objection, so ordered.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
important hearing. I would also like to thank the witnesses for 
appearing to testify on our efforts to counter the threat of 
weapons of mass destruction.
    We have been fortunate that a weapons of mass destruction 
attack has never come to fruition in the United States. The 
threat from weapons of mass destruction is not limited to any 
particular organization or nation.
    Consequently, we have to be prepared for an adequate 
response to an attack on all fronts. In 2008, the Commission on 
Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism, the WMD Commission, produced a report entitled 
``World at Risk.''
    According to this report, the commission told us that they 
believe that a terrorist attack would occur somewhere in the 
world by 2013, and that it is more likely to be an act of 
biological terrorism. The commission found that American needs 
to move more aggressively to address our vulnerability to a 
bioterror attack and it concluded that the best strategy for 
bio-defense was improving the ability to respond. A potential 
WMD attack requires that we alter policy and ensure that first 
responders have the resources that are necessary to be 
effective on our behalf.
    Investments in emergency communications, planning, and 
response equipment saves lives. The first responder grant 
programs, important to WMD preparedness, should not be 
understated and must be provided at adequate funding levels.
    Mr. Chairman, as you know, I represent western New York. 
The first responders of western New York have repeatedly 
answered the call. They have faced the man-made horrors of 
Ground Zero and are currently facing the wrath of Mother Nature 
with assistance with Hurricane Sandy.
    To know that the actions of first responders will be 
critical to preventing a catastrophe in the wake of a potential 
WMD attack, we should give the Department of Homeland Security 
incentive to properly fund these programs.
    In July, representatives of first responders in western New 
York testified before this subcommittee. Their testimony 
indicated that funding for response is crucial to their 
efforts.
    I believe that the WMD Commission and the testimony our 
witnesses will provide today will underscore that point.
    Earlier, this Congress and this committee voted favorably 
to report H.R. 2356, the WMD Prevention and Preparedness Act of 
2012, to the House. This comprehensive legislation addressed 
the major actions recommended by the WMD Commission and 
included a range of provisions related to prevention, 
deterrence, detection, preparedness, response, and recovery.
    Along with readiness, information sharing among Federal, 
State, and local agencies must be strong when it comes to WMD 
intelligence.
    This Congress and you, Mr. Chairman, introduced legislation 
that strengthened WMD intelligence and information sharing. 
This legislation, too, was voted favorably by this committee.
    Though these two bills are steps in the right direction, 
there is still more work to be done. First responders need to 
be fully capable and equipped to handle a WMD attack. This 
means full funding of State and local grant programs by the 
Federal Government.
    Additionally, coordination needs to be improved among 
Federal, State, and local and private entities to have a WMD 
response that is expedient and efficient.
    I look forward to the witnesses' testimony today and to 
hearing how we can work more closely to close the gaps that may 
exist by providing more resources that we need in order to be 
prepared for this eventuality.
    With that, I will yield back.
    Mr. Meehan. I want to thank the distinguished Ranking 
Member for his opening comments.
    Mr. Higgins. Yes, Mr. Chairman. I would ask unanimous 
consent to allow Mr. Green from Texas to sit in for questioning 
as well.
    Mr. Meehan. Without objection, so ordered.
    Welcome, Mr. Green. Thank you for joining us today.
    The other Members of the committee are reminded that 
opening statements may be submitted the record.
    Now we are pleased to have two distinguished witnesses 
before us today at this very important topic. First, I will do 
each of their biographies.
    First, Colonel Randall J. Larsen is the chief executive 
officer of the WMD Center and also serves as a senior fellow at 
the George Washington University's Homeland Security Policy 
Institute.
    Colonel Larsen previously served as the executive director 
of the Congressional Commission on the Prevention of Weapons of 
Mass Destruction Proliferation and Terrorism.
    He created the Nation's first graduate course in homeland 
security in 1999--you were a little ahead of your time--while 
chairman of the Department of Military Strategy and Operations 
at the National War College.
    He was one of the first witnesses to testify before the 9/
11 Commission. He served as an expert witness before this and 
other Congressional committees. He retired from the Air Force 
in 2000, after serving in both the Air Force and Army for a 
combined 32 years.
    His decorations include the Distinguished Flying and Bronze 
Star.
    Dr. Leonard A. Cole is the director of the Program on 
Terror Medicine and Security at the University of Medicine and 
Dentistry of New Jersey's Center for Bio-defense. He is also an 
adjunct professor in the school's Department of Emergency 
Medicine and the Department of Political Science at Rutgers 
University, Newark.
    Dr. Cole is a noted bioterrorism expert and has written 
numerous books and articles appearing in professional journals 
and other media publications. He has testified before Congress 
on multiple occasions and made presentations to various Federal 
agencies.
    He holds degrees from the University of California, 
Berkeley, Columbia University, and the University of 
Pennsylvania's School of Dental Medicine.
    Before I begin, I ask unanimous consent to insert in the 
record the WMD Center's Bio-response Report Card* and the Aspen 
Institute Homeland Security Group update on the recommendations 
of the Commission on the Prevention of Mass Destruction 
Proliferation and Terrorism.
---------------------------------------------------------------------------
    * The information has been retained in comittee files.
---------------------------------------------------------------------------
    Without objection, so ordered.
    [The information follows:]
        Statement of The Aspen Institute Homeland Security Group
 wmd terrorism.--an update on the recommendations of the commission on 
    the prevention of weapons of mass destruction proliferation and 
                               terrorism
the aspen institute homeland security group's wmd working group, 11/15/
                                  2012
The bipartisan Congressional Commission on the Prevention of Weapons of 
Mass Destruction Proliferation and Terrorism (WMD Commission) 
determined in December 2008 that WMD terrorism is a continuing and 
serious threat. The Commission further concluded that it is more likely 
that terrorists would obtain and use a biological rather than a nuclear 
weapon. At the request of Homeland Security Secretary Janet Napolitano, 
the Aspen Homeland Security Group's WMD Working Group (AWG) has 
considered the current terrorist threat associated with these weapons, 
U.S. readiness to address the threat, and proposals to strengthen 
preparedness.
                         the terrorist threats
The Biological Threat
            Assessing the Biological Threat
    Biological weapons--pathogens used for hostile purposes--are 
different from any other category of weapons. Bioweapons are perhaps 
the ultimate asymmetric weapon. A briefcase filled with high-quality 
dry-powdered agent, such as powdered anthrax spores, could contain a 
sufficient quantity to attack a large city.
    The consequences of such an attack were described in a 2009 
National Security Council document:

``The effective dissemination of a lethal biological agent within an 
unprotected population could place at risk the lives of hundreds of 
thousands of people. The unmitigated consequences of such an event 
could overwhelm our public health capabilities, potentially causing an 
untold number of deaths. The economic cost could exceed one trillion 
dollars for each such incident. In addition, there could be significant 
societal and political consequences that would derive from the 
incident's direct impact on our way of life and the public's trust in 
Government.''\1\
---------------------------------------------------------------------------
    \1\ National Strategy for Countering Bioterrorism, National 
Security Council, November 2009: 1.

    Any nation with a developed pharmaceutical industry has the 
capability to produce potent ``military-grade'' bioweapons. While non-
state actors may not be able to produce weapons of this sophistication, 
there is considerable evidence they can produce bioweapons that could 
approach the standard of a WMD. Thus an act of bioterrorism could 
produce enormous economic and social-psychological consequences while 
falling short of the WMD threshold.
    Beginning a week after the jetliner attacks in 2001, about a half-
dozen letters containing anthrax spores were mailed to journalists and 
politicians. Four letters with spores and threat messages eventually 
were recovered and all were postmarked Trenton, NJ. At least 22 people 
had become infected, 5 of whom died. But scores of buildings had also 
become contaminated with spores and more than 30,000 people who were 
deemed at risk required prophylactic antibiotics.\2\
---------------------------------------------------------------------------
    \2\ Daniel B. Jernigan, et al. ``Investigation of Bioterrorism-
Related Anthrax, United States, 2001: Epidemiologic Findings.'' 
Emerging Infectious Diseases. 2002; 8(10): 1019-28.
---------------------------------------------------------------------------
    While the number of infected victims was minimal, millions of other 
citizens were fearful, many of them anxious about opening their own 
mail. Tens of thousands of specimens of white powder were processed; 
numbers of buildings were evacuated in cities throughout the country on 
the suspicion that powder found on the premises might be anthrax. 
Moreover, the casualty count could have been far greater if the bio-
agent had been resistant to antibiotics or if instead of 6 letters, 600 
had been sent.
    A prime lesson learned from the anthrax letters incident is that a 
single individual, using standard laboratory equipment and procedures, 
can terrorize an entire Nation.
            The Growing Threat of Bioterrorism
    The AWG recognizes that the bio-threat remains undiminished:
  <bullet> Al-Qaeda's efforts to develop an anthrax weapon were 
        unsuccessful, but neither is there evidence that the 
        organization's bio-weapons ambitions have diminished. Ayman al 
        Zawahiri, who led the biological program, is currently head of 
        al-Qaeda.
  <bullet> The threat of bioterrorism is not limited to any particular 
        nation or terrorist organization. Thus, the elimination of any 
        regime or terrorist organization will not eliminate the threat.
  <bullet> The risk of bioterrorism is a function of intent, 
        capability, and vulnerability.
  <bullet> The procedures and equipment required to develop bioweapons 
        are dual-use and readily available.
  <bullet> The availability of pathogens for use as bioweapons is 
        ubiquitous, as effectively demonstrated in a recent study.\3\
---------------------------------------------------------------------------
    \3\ Kunal J. Rambhia, Abigail S. Ribner, and Gigi Kwik Gronvall, 
``Everywhere You Look: Select Agent Pathogens,'' Biosecurity and 
Bioterrorism. 2011; 9 (1). www.upmc-biosecurity.org/website/resources/
publications/2011/2011-03-03-select_agent_pathogens.html.
---------------------------------------------------------------------------
  <bullet> The U.S. Government has limited ability to reduce intent of 
        hostile actors and virtually no ability to reduce the 
        capability of our enemies to produce such weapons.
  <bullet> Therefore, our primary defense is the ability to respond.
  <bullet> In its final report, the WMD Commission concluded that the 
        best strategy for biodefense was improving the ability to 
        respond. Rapid detection and diagnosis, adequate supplies of 
        medical countermeasures and the means to rapidly dispense them, 
        and surge medical capacity are among the critical elements 
        required for effective response.
  <bullet> While bioattacks cannot be entirely prevented, proper 
        response can prevent an attack from becoming a catastrophe.
  <bullet> The long-range strategy is to develop protective and 
        response capabilities that would minimize the effect of a 
        bioattack and thus remove bioweapons from the category of WMD.
    Although spending on biodefense was ramped up after the anthrax 
letters of 2001, the sense of urgency has receded and bio-preparedness 
has suffered. Many experts worry that complacency and shrinking budgets 
have left the Nation under-prepared.
    In October 2011, the Bipartisan WMD Terrorism Research Center, led 
by former Senators Graham and Talent, released a report card on 
America's bio-response capabilities. This comprehensive report was 
guided by a dozen of the Nation's top biodefense, public health, and 
medical experts. The report assessed seven critical categories of 
response across six levels of attack--ranging from small-scale (such as 
the anthrax letters of 2001) to a full-blown global crisis with the 
potential for millions of illnesses and/or deaths. Weakness in 
preparedness for a large-scale bio-event was evident by deficiencies in 
a range of capabilities including diagnosis, attribution of cause, 
availability of medical countermeasures, and medical management. (Each 
of these categories received a grade of D or F, meaning they met few or 
none of the analysts' prescribed expectations.) \4\
---------------------------------------------------------------------------
    \4\ The Bipartisan WMD Terrorism Research Center's Report Card. WMD 
Center: Washington DC, October 2011. http://www.wmdcenter.org.
---------------------------------------------------------------------------
The Nuclear Threat
            Assessing the Nuclear Threat
    Assessing the threat posed by terrorist acquisition of a nuclear 
bomb is not easy. Unlike chemical, biological, or radiological weapons, 
which can be used in either small-scale or large-scale attacks (with 
small-scale attacks being more likely), a nuclear bomb can only be a 
weapon of mass destruction.
    Acquisition of a nuclear weapon through fabrication of an 
improvised device or theft of an existing weapon and circumvention of 
security measures is far more challenging than the acquisition of other 
unconventional weapons. But if terrorists could obtain the necessary 
quantity of fissile material and detonate a nuclear device, the 
consequences would be catastrophic in terms of lives lost, structural 
damage, and psychological effects. Although a targeted nation could 
survive a single nuclear explosion, the attack would set off a terrible 
chain of events. A post-nuclear-terrorism world would be a dismal and 
very different place.
    Thus far only three non-state groups appear to have engaged in 
serious efforts to acquire a nuclear capability--Aum Shinrikyo in 
Japan, Chechen rebels in Russia, and al-Qaeda. The fact that these 
three groups all emerged in the 1990s allows an inference that 
contemporary terrorist groups may be more likely to go nuclear.
            Al-Qaeda's Nuclear Project
    Of the three groups, al-Qaeda seemed the most determined to acquire 
nuclear weapons. Al-Qaeda terrorists attempted to purchase fissile 
material or what they believed were nuclear weapons on at least two 
occasions, once in Sudan and later in Afghanistan. Osama bin Laden 
persuaded several Pakistani nuclear scientists to come to Afghanistan 
to discuss how an improvised nuclear device might be fabricated. 
Numerous news stories after 9/11 suggested that al-Qaeda already had 
nuclear weapons, and al-Qaeda's leaders apparently claimed to have 
acquired them, although all such claims have proved to be without 
substance. But al-Qaeda did obtain religious rulings allowing it to 
kill millions of Americans, which some analysts interpret as justifying 
its eventual use of nuclear weapons.
    At some point in the last decade, the organization's nuclear 
weapons project turned from an actual--albeit unsuccessful--acquisition 
effort to a propaganda program calculated to excite its followers and 
frighten its foes. And that effort was successful, although that does 
not negate the likelihood of a continuing ambition to acquire a nuclear 
device.
    In intelligence and policy circles, worries about al-Qaeda's 
nuclear efforts, especially from late 2001 to 2003, tended to be 
exaggerated. In retrospect, assumptions at that time revealed a lack of 
good intelligence regarding al-Qaeda's capabilities.
    There are no indications that al-Qaeda's leadership or any of its 
regional affiliates are currently pursuing acquisition of a nuclear 
capability. Its leaders must devote their attention to survival. 
However, al-Qaeda is historically opportunistic. A weapon or fissile 
material on offer, perhaps in Russia, or, more likely, a chaotic 
situation in Pakistan could create a new opportunity.
    The widespread public alarm created by al-Qaeda's nuclear efforts 
suggests that the idea of nuclear terrorism will almost certainly be on 
the minds of tomorrow's terrorists. At the same time, the relentless 
pursuit of al-Qaeda could provide a disincentive for others who might 
be considering similar efforts.
            Nations of Concern
    If terrorists are unlikely to fabricate or steal nuclear weapons, 
might hostile nations secretly provide terrorists with such weapons to 
carry out deniable attacks against their foes? Many analysts see this 
as one of the dangers posed by Iran's nuclear program.
    Iran's suspected efforts to acquire nuclear weapons does increase 
the danger of nuclear terrorism, although perhaps not directly. It is 
difficult to foresee Iran relinquishing operational control by turning 
a nuclear weapon over to Hezbollah or any other terrorist protege. Al 
Quds remains Iran's operational arm and almost certainly would never 
hand over a nuclear device to another party.
    If Iran had nuclear weapons, its arsenal would pose a more 
insidious threat. Even perceived possession could increase Iran's 
strategic influence. But it could also become a strategic liability by 
making Iran a likely target if, for example, an incident of nuclear 
terrorism were to occur. Because elements of Iran's nuclear program are 
clandestine, it is not possible for the outside world to have 
confidence in its security measures. Also, while Iran's government has 
been stable for the past three decades, internal rivalries and 
political divisions remain.
    Further, a presumed Iranian nuclear capability would encourage 
other countries in the region to follow suit, leading to nuclear 
proliferation in a turbulent part of the world. Countries could seek 
shortcuts to acquisition, using clandestine networks or attempting to 
purchase weapons from those with existing arsenals. Intelligence 
operations may not be geared to look for novel nuclear acquisition 
routes other than ``mini-Manhattan Projects'' or new AQ Khan networks.
    It also seems unlikely that North Korea would turn over its nuclear 
weapons to foreign terrorists. In past terrorist attacks, North Korea 
has relied on its own operatives. The government's record of exporting 
advanced weapons and nuclear technology for commercial reasons, 
however, is a reason for serious concern. A collapse of the North 
Korean state would prompt alarm about the disposition and control of 
its nuclear arsenal.
    Current trends in Pakistan are worrisome. Its political situation 
borders on chaos, and the country is infested with violent extremists, 
including Taliban, the Haqqani network, and Lashkar-e-Taiba, as well as 
the remnants of al-Qaeda's central command. Some of these groups 
operate under the influence of Pakistan's intelligence services. In 
addition, religious radicalization seems to be spreading throughout the 
country, affecting even the officer corps of the army and raising 
questions about Pakistan's long-term stability.
    Despite Pakistan's military commanders' assurances that the 
country's nuclear arsenal remains secure, political turmoil and attacks 
on major military targets fuel continued concern. One can easily 
envision scenarios in which terrorists, rogue elements in the military, 
or combinations of the two seize a nuclear weapon or some component, 
such as a fissile core. Under such circumstances, the situation would 
be unclear and loyalties uncertain.
    Further, it is unlikely that Pakistani commanders' first action 
would be to summon foreign intervention to secure their nuclear 
arsenal. In any case, how confident can anyone be that the United 
States could do anything effective in time?
            The Threat of a ``Dirty Bomb''
    Like a chemical or biological weapon, a radiological dispersal 
device (RDD) can be used in either a small-scale or large-scale attack, 
though the former is more likely. Unless widespread and at high levels, 
radiation exposure is unlikely to cause extensive and imminent illness 
or death. Thus, a radiation release is more likely to result in anxiety 
and disruption than numerous casualties. The acquisition and dispersal 
of small quantities of radioactive materials such as cesium and cobalt, 
which are regularly used in medical and industrial activities, are far 
less technologically challenging than building and detonating a nuclear 
bomb.
    It is, therefore, somewhat surprising that terrorists have not 
taken this path. Only the Chechens have used a radiological weapon, and 
they did not detonate it to disperse radioactive material. Rather, they 
announced its presence to the news media simply to foster terror. While 
not capable of producing large numbers of casualties, an RDD would be 
capable of producing major economic, social, and psychological 
disruptions.
                               readiness
The Biological and Nuclear Weapons Challenges
    The Nation is better prepared in several areas for a bio-event than 
before 2001. Methods of detecting potential bio-agents have improved, 
as has awareness of the bio-threat among health and security agencies. 
But levels of bio-preparedness vary widely from community to community.
    Preparedness for a medium- or large-scale nuclear attack is even 
more daunting. Such an event would result in massive death and 
destruction and prompt depressing psychological effects throughout the 
population. Some of these consequences could be mitigated with response 
planning, though preparedness explicitly for a nuclear detonation is 
currently minimal.\5\ Meanwhile, it is necessary to restate the danger 
of nuclear proliferation and fully to endorse efforts to prevent the 
spread of these weapons. In this regard, the AWG notes the bi-partisan 
imperative that Iran must be prevented from acquiring nuclear arms.
---------------------------------------------------------------------------
    \5\ Rad Resilient City, Fallout Preparedness Checklist. Center for 
Biosecurity of UPMC, 2011. http://www.radresilientcity.org/checklist/
index.html.
---------------------------------------------------------------------------
Overall Assessment
    An assessment of readiness to address any large-scale WMD 
incident--whether chemical, biological, radiological, or nuclear--
suggests deficiencies in three main areas:
            1. Response Resources
    In the event of a domestic catastrophic event, such as the 
detonation of a nuclear weapon, the Department of Homeland Security 
would be the lead Federal agency for consequence management.\6\ 
However, in a severely degraded or contaminated environment where many 
local responders might be among the casualties, the Department of 
Defense (NORTHCOM and the National Guard operating in either Title 32 
or Title 10 status) would likely be called upon to provide most of the 
personnel for the initial response.\7\ But the 2010 Quadrennial Defense 
Review canceled most of NORTHCOM's WMD response capabilities.\8\
---------------------------------------------------------------------------
    \6\ Homeland Security Act of 2002 and related Presidential 
directives.
    \7\ As provided for in the Stafford Act of 1988, these forces would 
be deployed in support of FEMA.
    \8\ U.S. Department of Defense, Quadrennial Defense Review Report 
(February 2010), 19.
---------------------------------------------------------------------------
    In addition, current DoD planning calls for the termination of the 
U.S. Marine Corps' Chemical Biological Incident Response Force 
(CBIRF)--a core NORTHCOM capability--no later than 2017.
    Accordingly, DHS, and State and local authorities, may be expecting 
more help from DoD than could be delivered in a timely manner. Thus, 
DoD may have far less WMD response capability (fewer resources with 
slower delivery) than some might have assumed.
    Federal funding through the Department of Health and Human Services 
(HHS) for State and local public health and medical response 
capabilities has been substantially reduced. The result has been 
negation of much of the progress made since 9/11 and degradation of 
capabilities through the National Disaster Medical System. 
Additionally, Congress's failure to reauthorize the Pandemic and All-
Hazards Preparedness ACT (PAHPA) threatens efforts to develop, produce, 
and stockpile necessary medical countermeasures. It should be noted, 
however, that another recent HHS initiative does seek to hasten the 
development of medical countermeasures.\9\
---------------------------------------------------------------------------
    \9\ HHS Creates New Centers to Develop, Manufacture Medical 
Countermeasures. News Release, June 18, 2012. http://www.hhs.gov/news/
press/2012pres/06/20120618a.html.
---------------------------------------------------------------------------
            2. Response Plans
    Several Federal agencies have developed initiatives to address 
potentially catastrophic domestic WMD events. To the extent that such 
plans exist, they are not yet integrated into a coordinated Federal 
whole. Moreover, there is almost no planning that realistically 
incorporates Federal, State, local, and private sector resources into a 
unified WMD response. Readiness varies from department to department 
and from State to State. As a result, we are strategy-rich and plan-
poor. Effective readiness requires that detailed planning be brought to 
a level of integrated and timely tactical execution.
            3. Exercises
    Although consequence management exercises have improved in recent 
years, they remain insufficiently rigorous and challenging. In fact, 
NORTHCOM has never held an exercise that employs a full defense WMD 
response force (DCRF,\10\ with all 5,200 personnel). The DoD has 
produced a summary of 19 missions that it might be expected to perform 
in response to a pandemic outbreak (or other domestic WMD event). Among 
them are intelligence, force protection, surge medical capability, 
patient transport, communications support, mortuary affairs, and 
continuity of operations.\11\
---------------------------------------------------------------------------
    \10\ DCRF refers to the U.S. Army's Defense Chemical, Biological, 
Radiological, and High-Yield Explosive Response Force.
    \11\ U.S. Department of Defense, ``19 DoD Pandemic Planning 
Tasks,'' (unpublished document, Office of the Assistant Secretary of 
Defense for Homeland Defense & America's Security Affairs, 2006).
---------------------------------------------------------------------------
    But few of these missions have been tested in a realistic training 
environment. For DoD and the entire Federal interagency structure, 
exercises should involve a larger number of personnel, deployed in a 
challenging field environment. Remediation of identified deficiencies 
should be an essential goal of rigorous After-Action Reviews.
                         some proposed actions
    1. Regarding WMD, place a premium on assessing capabilities and 
        intent both of states and terrorist organizations.
    2. Emphasize that despite the weakening of al-Qaeda's structure, 
        terrorist interest in WMD remains undiminished.
    3. Underscore the importance of public-private collaboration and 
        the need to augment resources for public health and medical 
        response capabilities.
    4. Need to develop and test operational plans.
    5. Recommend on-site presence at large hospitals of a reference 
        person with knowledge about select agents.
    6. Need to fill the current void in planning, preparedness, and 
        response regarding the effects of a nuclear detonation.
    7. Need to keep leaders and opinion makers attentive to these 
        issues.
    8. Consider highlighting the ``black swan''--impact of the highly 
        improbable--as a symbolic means to spotlight WMD terrorism 
        concerns. Black swan theory is already salient in several 
        disciplines (financial markets, psychology, mathematics, 
        meteorology).\12\
---------------------------------------------------------------------------
    \12\ Nassim Nicholas Taleb, The Black Swan: The Impact of the 
Highly Improbable. 2nd ed. NY: Random House, 2010.
---------------------------------------------------------------------------
    9. Congress should reauthorize the Pandemic and All-Hazards 
        Preparedness ACT (PAHPA).

    Mr. Meehan. So with both witnesses, I appreciate your being 
here today, the great work that you did on the preparation for 
the report. We look forward to your testimony.
    We always try to appreciate that you will be getting a 
series of questions. So the extent to which you can try and 
keep it within the 5-minute time frame; it helps us move the 
hearing along.
    So let me now recognize Colonel Larsen for his testimony.
    Mr. Cole. [Off mike.]
    Mr. Meehan. I am happy to do that. You never tell Gherig 
that Ruth should bat first.

   STATEMENT OF LEONARD A. COLE, DIRECTOR, PROGRAM ON TERROR 
MEDICINE AND SECURITY, UNIVERSITY OF MEDICINE AND DENTISTRY OF 
    NEW JERSEY, TESTIFYING ON BEHALF OF THE ASPEN INSTITUTE

    Mr. Cole. Thank you so much. Chairman Meehan, thank you so 
much.
    Ranking Member Higgins, distinguished Members of the 
subcommittee, and if I may add Congressman Pascrell for multi 
reasons, not least of which are that we are from the same State 
where, in some manner, this was the central beginning point of 
the anthrax episodes.
    He happens to be a representative of the district right 
next to mine. So I can just look over the fence and see what 
you are doing. And doing well. Thank you.
    I much appreciate the opportunity to discuss with all of 
you the new paper entitled ``WMD Terrorism,'' which is being 
put forth by the Aspen Homeland Security Group's WMD Working 
Group.
    Produced at the request of Homeland Security Secretary 
Janet Napolitano, it offers an update on recommendations made 
in December 2008 by the Bipartisan Commission on the Prevention 
of Weapons Mass Destruction Proliferation and Terrorism, which 
you have referred to properly as the WMD Commission.
    This commission has determined that WMD terrorism is a 
continuing and serious threat. It further concluded that 
terrorists were more likely to obtain and use a biological than 
a nuclear weapon.
    The Aspen Working Group paper surveys the current 
biological and nuclear threats. It reviews our Nation's 
readiness to address the threat. It lists proposed actions.
    As a member of the working group and a co-editor of the 
paper with Randy Larsen, I am pleased to share with you some of 
the paper's key determinations.
    First, as to the biological threat. The release of a 
briefcase full of high-quality biological agents, such as 
powdered anthrax, could place many thousands of people at risk.
    The physical, psychological, and economic consequences 
could be monumental. Any nation with a developed pharmaceutical 
industry has the capability to produce potent military grade 
bio-weapons. But as the 2001 anthrax attacks demonstrated, even 
a few letters containing spores could cause illness and death 
and terrorize the Nation.
    The availability of pathogens for use as bio-weapons is 
ubiquitous. Although spending on bio-defense was ramped up 
after 2001 and the anthrax attacks, the sense of urgency has 
receded. Bio-preparedness has suffered.
    Many experts worry that complacency and shrinking budgets, 
especially for State and local public health departments, has 
left the Nation under-prepared.
    As for the nuclear threat, acquisition of a nuclear weapon 
through fabrication of an improvised device or theft of an 
existing weapon is far more challenging than the acquisition of 
other unconventional weapons.
    But if terrorists could obtain the necessary quantity of 
fissile material and detonate a nuclear device, the 
consequences would be catastrophic in terms of lives lost, 
structural damage, and psychological effects.
    Al-Qaeda terrorists attempted to purchase fissile material, 
or what they believed were nuclear weapons on at least two 
occasions, once in Sudan and later in Afghanistan.
    In the last decade, the organization's nuclear weapons 
project turned from an actual, albeit unsuccessful, acquisition 
effort to a propaganda program calculated to excite its 
followers and frighten its foes.
    The widespread public alarm created by al-Qaeda and its 
nuclear efforts suggests that the idea of nuclear terrorism 
will almost certainly be on the minds of tomorrow's, and I 
might say today's, terrorists.
    The Aspen Working Group underscored the importance of 
preventing the spread of these weapons and the bipartisan 
imperative that Iran must be prevented from acquiring nuclear 
arms.
    Finally, the third section of what I will be discussing 
with you, readiness. Response resources in some areas have 
diminished in recent years. One example, the 2010 Quadrennial 
Defense Review canceled most of NORTHCOM's WMD response 
capabilities.
    NORTHCOM, the U.S. Northern Command, is the military's 
homeland defense command.
    Another example, funding through the Department of Health 
and Human Services for State and local public health and 
medical response capabilities, has been substantially reduced. 
Response plans and exercises also fall short of optimal levels.
    Planning that realistically incorporates Federal, State, 
local, and private-sector resources into a unified WMD response 
is largely absent. Similarly, the consequence management 
exercises remain insufficiently rigorous and challenging.
    NORTHCOM has never held an exercise that employs a full 
Defense WMD Response Force.
    Now all of the comments that I just offered to you are more 
detailed and elaborated on in the full report, which I believe 
has been distributed to the committee.
    There is a list of proposed actions. I will just offer four 
of them. The others are spelled out in the larger report. The 
four that I think are near the top, if not at the top of our 
concerns, the working group's concerns.
    First, regarding WMD, place a premium on assessing 
capabilities and intent both of state and terrorist 
organizations. Second, emphasize that despite the weakening of 
al-Qaeda's structure, terrorist interest in WMD remains 
undiminished.
    Third, underscore the importance of public/private 
collaboration and the need to augment resources for public 
health and medical response capabilities. Fourth, Congress 
should reauthorize the Pandemic and All Hazards Preparedness 
Act, which I understand versions of have been passed by each 
house and is due and should be done by way of conference 
committee, to present as the final act for passage and 
signature of the President.
    Finally, I would like to thank Clark Ervin, who is the 
director of the Aspen Institute's Homeland Security Group, as 
well as his very able staff, and Dr. Randy Larsen, who did a 
marvelous job in helping to prepare and edit the report which 
he and I worked carefully with, but absolutely with the major 
input of virtually every member of our working group.
    So thank you, sir.
    [The statement of Mr. Cole follows:]
                 Prepared Statement of Leonard A. Cole
                           November 15, 2012
    Chairman Meehan, Ranking Member Higgins, distinguished Members of 
the subcommittee, I much appreciate the opportunity to discuss with you 
the new paper titled WMD Terrorism by the Aspen Homeland Security 
Group's WMD Working Group. Produced at the request of Homeland Security 
Secretary Janet Napolitano, it offers an update on recommendations made 
in December 2008 by the bipartisan Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism (WMD 
Commission).
    The WMD Commission had determined that WMD terrorism is a 
continuing and serious threat. It further concluded that terrorists 
were more likely to obtain and use a biological than a nuclear weapon. 
The Aspen Working Group paper surveys the current biological and 
nuclear threats, reviews our Nation's readiness to address the threats, 
and lists proposed actions. As a member of the Working Group and co-
editor of the paper, I am pleased to share with you some of the paper's 
key determinations.
    Biological Threat.--The release of a briefcase-full of high-quality 
biological agent, such as powdered anthrax spores, could place many 
thousands of people at risk. The physical, psychological, and economic 
consequences could be monumental. Any nation with a developed 
pharmaceutical industry has the capability to produce potent 
``military-grade'' bioweapons. But as the 2001 anthrax attacks 
demonstrated, even a few letters containing spores could cause illness 
and death and terrorize the Nation.
    The availability of pathogens for use as bioweapons is ubiquitous. 
Although spending on biodefense was ramped up after 2001, the sense of 
urgency has receded and bio-preparedness has suffered. Many experts 
worry that complacency and shrinking budgets, especially for State and 
local public health departments, have left the Nation under-prepared.
    Nuclear Threat.--Acquisition of a nuclear weapon through 
fabrication of an improvised device or theft of an existing weapon is 
far more challenging than the acquisition of other unconventional 
weapons. But if terrorists could obtain the necessary quantity of 
fissile material and detonate a nuclear device, the consequences would 
be catastrophic in terms of lives lost, structural damage, and 
psychological effects.
    Al-Qaeda terrorists attempted to purchase fissile material or what 
they believed were nuclear weapons on at least two occasions, once in 
Sudan and later in Afghanistan. In the last decade, the organization's 
nuclear weapons project turned from an actual--albeit unsuccessful--
acquisition effort to a propaganda program calculated to excite its 
followers and frighten its foes. The widespread public alarm created by 
al-Qaeda's nuclear efforts suggests that the idea of nuclear terrorism 
will almost certainly be on the minds of tomorrow's terrorists.
    The Aspen Working Group underscored the importance of preventing 
the spread of these weapons and the bi-partisan imperative that Iran 
must be prevented from acquiring nuclear arms.
    Readiness.--Response resources in some areas have diminished in 
recent years. One example: The 2010 Quadrennial Defense Review canceled 
most of NORTHCOM's WMD response capabilities. (NORTHCOM, the U.S. 
Northern Command, is the military's homeland defense command.) Another 
example: Funding through the Department of Health and Human Services 
for State and local public health and medical response capabilities has 
been substantially reduced.
    Response plans and exercises also fall short of optimal levels. 
Planning that realistically incorporates Federal, State, local, and 
private-sector resources into a unified WMD response is largely absent. 
Similarly, consequence management exercises remain insufficiently 
rigorous and challenging. NORTHCOM has never held an exercise that 
employs a full defense WMD response force.
                      proposed actions (selected)
    1. Regarding WMD, place a premium on assessing capabilities and 
        intent both of States and terrorist organizations.
    2. Emphasize that despite the weakening of al-Qaeda's structure, 
        terrorist interest in WMD remains undiminished.
    3. Underscore the importance of public-private collaboration and 
        the need to augment resources for public health and medical 
        response capabilities.
    4. Congress should reauthorize the Pandemic and All-Hazards 
        Preparedness ACT (PAHPA).

    Mr. Meehan. Well, thank you, Dr. Cole, for your testimony. 
I appreciate that.
    I will now recognize Colonel Larsen for your testimony. 
Colonel Larsen.

 STATEMENT OF RANDALL J. LARSEN, CHIEF EXECUTIVE OFFICER, THE 
                           WMD CENTER

    Colonel Larsen. Thank you, Mr. Chairman, distinguished 
Members.
    I, too, would like to thank the Aspen Institute, 
particularly Clark Ervin and his staff, for leading this effort 
that was in a response to a request from Secretary Napolitano 
to look at this issue.
    My remarks today, however, do not necessarily reflect those 
of the entire research team convened by the Aspen Institute.
    In a recent press conference, Governor Chris Christie 
described the destruction of the New Jersey shore as 
unthinkable. Now I am a big fan of Governor Christie, but I 
think he was wrong. I need to point out his error.
    He could have stated the destruction was catastrophic or 
calamitous. But it was not unthinkable.
    Since 2005, the Department of Homeland Security has had a 
list of 15 events in the National Planning Scenario. It talks 
about one of a hurricane scenario, of a category four, hitting 
a major metropolitan area, much like we saw here a few weeks 
ago, that will kill 1,000 and hospitalize 5,000.
    There will be major metropolitan areas that will be 
severely flooded. There will be structure damage and collapse 
of buildings, and significant infrastructure damage.
    Thankfully, Sandy was only a category one. Because of swift 
action by governors, and we did evacuate people from those 
danger zones, we limited death and serious injury.
    In other words, Sandy was far from unthinkable. It was far 
less severe than the National Planning Scenario has told us for 
7 years.
    My concern, Mr. Chairman and Members of this committee, is 
that we once again have fallen into that mindset best described 
by the 9/11 Commission of a failure of imagination.
    Most of our homeland security personnel, public health, 
disaster response, Federal, State, and local level, and I think 
the Members of this committee understand what is thinkable. You 
describe it in your opening statements, both the Chairman and 
the Ranking Member.
    I cannot say the same, however, for many other senior 
leaders on the Hill and some in the administration. As you said 
in 2008, the WMD Commission concluded an act of bioterrorism 
was more likely than act of nuclear terrorism.
    Senator Graham, Senator Talent, and I stand behind that 
today. By the way, when that World at Risk said in December 
2008 that it was more likely than not there would be a WMD 
attack somewhere in the world before the end of 2013, that was 
not just the WMD Commission.
    A week later, the director of national intelligence, in 
response to a question in a speech at the Kennedy School at 
Harvard, completely agreed with that assessment from the 
intelligence community.
    So in 2001, Senator Graham, Talent, and I and Ms. Lynne 
Kidder, who is the president of the WMD Center, put together a 
report card that you submitted this morning.
    Mr. Chairman, I tell you, you know, we brought together an 
incredible team of two dozen of the country's top experts. We 
had a former deputy commissioner of FDA.
    We had the director of disaster medicine at the American 
Medical Association. We had the former special assistant to the 
President for bio-defense in both the Clinton and Bush 
administrations, and many others that worked with us on this.
    That is why we thought it was important to introduce that 
today. We think it is of great value. I will tell you, when you 
look on page 9 at that report card, that is not a report card 
that you would want to take home to mom.
    We looked at this and we looked at a wide range of attacks, 
all the way from something small, like you mentioned, of the 
anthrax, all the way up to pandemic of near-Biblical 
proportions.
    But what we tried to tell the press and what I will tell 
you today is don't try to do a GPA of all these 70 grades. 
Don't focus over here in the dark red area because that is the 
most catastrophic thing, that we could just waste lots of money 
on.
    We said focus our efforts on World at Risk talked about in 
2008. Let us go back to those 15 planning scenarios in 
Department of Homeland Security. The one they all agree is our 
biggest threat and most likely threat is aerosolized anthrax.
    I will tell you, Mr. Chairman, today we still don't have a 
National plan to respond to an anthrax attack.
    I agree and the WMD Center completely agrees with the nine 
recommendations from the Aspen report. I will add one to it, 
though, that I think is quite important from our report that we 
issued at the WMD Center last year.
    I know you talked about all these different things. There 
is intelligence. There is getting our first responders 
prepared. All important, but got a tough fiscal climate coming 
up.
    It is going to be your job to set priorities. Where do we 
put the highest priority? I will read you one sentence from 
this report signed by Senator Graham and Senator Talent: ``A 
bio-response enterprise without adequate medical 
countermeasures is like an army without bullets. It may look 
good on the parade ground, but has minimal value for National 
security.''
    We are very concerned about the reauthorization of PAHPA, 
Pandemic and All Hazards Preparedness. If we don't 
reappropriate the money that we need to that bio-shield program 
that will get the pharmaceutical industry involved in this, we 
have very little chance of making progress in bio-response 
capability.
    Once again, I would like to thank Clark Kent Ervin and the 
staff at Aspen. Once again, it is another great bipartisan 
thing. Secretary Chertoff and Jane Harman lead that effort over 
there for the Homeland Security Group.
    I like working on bipartisan stuff. I love working with 
Len. He has done a great job. We are ready for your questions.
    Thank you, Mr. Chairman.
    [The statement of Mr. Larsen follows:]
                Prepared Statement of Randall J. Larsen
                           November 15, 2012
    Mr. Chairman . . . I would like to thank you for convening this 
hearing, and to express my appreciation to the Aspen Institute, in 
particular, Mr. Clark Kent Ervin, for leading the research and analysis 
for the report submitted to the subcommittee.
    As one of the founding directors of the Bipartisan WMD Terrorism 
Research Center, my opening statement and responses to your questions 
will reflect my own opinions and not necessarily those of the entire 
research team convened by the Aspen Institute.
    Mr. Chairman . . . in a recent press conference, Governor Chris 
Christie described the destruction of the New Jersey shore as 
``unthinkable.'' I like the Governor, but I will nevertheless point out 
his error. He could have stated the destruction was catastrophic or 
calamitous, but it was most certainly not ``unthinkable.''
    Since 2005, the Department of Homeland Security has provided 
Federal, State, and local government officials with descriptions of 15 
disaster scenarios. The hurricane scenario describes a Category IV 
hitting a major metropolitan area, killing 1,000 and hospitalizing 
5,000. It portends major portions of the metropolitan area would be 
flooded, with structural collapse in many buildings and homes, and 
significant infrastructure damage.
    Thankfully, Sandy was only a Category I storm, and evacuations 
significantly limited the number of deaths and serious injuries. In 
other words, the effects of Sandy were far from ``unthinkable.'' They 
were far less severe than our National Planning Scenario described.
    My concern, Mr. Chairman, is that we have once again fallen into a 
mindset best described by the 9/11 Commission as ``a failure of 
imagination.'' Most of our homeland security, public health, and 
disaster response personnel at the Federal, State, and local levels 
understand what is ``thinkable'', including the Members of this 
committee. I cannot, however, say the same for many other appointed and 
elected officials. I base this assessment on the actions--or should I 
say, lack of action--of these officials.
    In December 2008 the WMD Commission concluded that an act of 
bioterrorism was more likely than an act of nuclear terrorism. 
Additionally, the National planning scenarios list only one weather-
related disaster, but four biological disaster scenarios. Nevertheless, 
our preparedness to respond to a major biological event is far less 
today than for a major hurricane.
    In October 2011, former Senators Bob Graham and Jim Talent released 
the WMD Center's report card on the Nation's bio-response preparedness.
    Mr. Chairman, the WMD Center assembled an extraordinary team of 
more than two dozen advisors to guide this assessment. It included a 
former deputy commissioner of the Food and Drug Administration, the 
director of disaster medicine at the American Medical Association, and 
a former special assistant for biodefense to both Presidents Clinton 
and Bush. We identified a wide spectrum of possible attacks--ranging 
from small-scale, such as the anthrax letters of 2001, to a global 
event of near-Biblical proportions.
    In its recommendations, the WMD Center's report suggested the 
Congress and administration should focus on improving response 
capabilities to the type of attack described in both the 2008 WMD 
Commission report and the National Planning Scenarios: Aerosolized 
anthrax.
    The grades were merely a snapshot of a point in time, but the most 
valuable aspect of the report card is the fundamental expectations 
developed by our team of experts that served as metrics for the 
assessment. Additionally, the report provided a series of questions to 
assess capabilities in achieving these expectations.
    This committee and other Congressional committees should be using 
these metrics and questions in 2013 to determine if we are making 
progress in strengthening bio-preparedness and response capabilities.
    With respect to the Aspen Institute WMD Working Group paper 
submitted to your committee, the WMD Center fully supports all nine 
recommendations, and in particular, reauthorization of the Pandemic and 
All-Hazards Preparedness Act.
    Mr. Chairman, I will close by thanking the other members of the 
Aspen Institute's WMD Working Group, and in particular Dr. Lenny Cole. 
It was a pleasure working with the group and a great learning 
experience.

    Mr. Meehan. Thank you, colonel. Thank you for your report 
and your continuing work.
    I will that echo one of the characteristics I think that 
this committee has been, it is genuine bipartisan interest and 
collaboration that has taken place looking at these issues. I 
am proud of the work of the entire committee in that end.
    So thank you for you testimony. Allow me to recognize 
myself for 5 minutes of questioning.
    I want to start off with where we left off with the last 4-
year bipartisan WMD Commission Report assessment that the most 
likely attack was a biological weapon. It said somewhere in 
2013. It is right around the corner from where they assessed 4 
years ago.
    We have had the ability now to have 4 years of time, 
changing world circumstances. In some way, things have gotten 
better in the form of the way those who have been threats to 
use--we would never say neutralized, but dispersed in some 
capacity.
    We have also seen massive sort of metastesization of the 
threat to numerous quarters. Of course we have state-sponsored 
issues as well in which there is potential threat.
    So looking at where we were 4 years ago and where we are 
today, has the threat assessment changed in those 4 years? Is 
there something that we need to be particularly concerned about 
today, as we look at what may be the most likely threat that we 
could face that would cause the greatest amount of damage?
    Mr. Cole, let me begin with you.
    Colonel Larsen. Sir, 4 years ago, bin Laden was in charge 
of al-Qaeda. Now it is Zawahiri, who is a medical doctor. He 
was the guy who began their anthrax weapons program. They had 
development programs both in Afghanistan and Malaysia.
    So the new leader understands I think better where they are 
going. One of my great concerns is, since 2008, we have lost 
40,000 public health workers at the State and local level due 
to budget cut-backs. Forty thousand, that is the front lines. 
That is the people that are up there in New York and New Jersey 
trying to make sure the people got safe drinking water and 
health care and all those sort.
    We cut them 40,000. The technology moves on. Since 2008, it 
has only gotten easier to make bio-weapons because of this 
incredible bio-technical revolution. I have briefed over 4,000 
senior military officers in the last few years about the threat 
of bioterrorism. I show them slides that for $1,000 you can go 
out and buy equipment at Home Depot and Lowe's and do a lot of 
the work you need.
    Now that won't make it as sophisticated as a weapon as we 
saw that was mailed to Congress, Senator Daschle and Senator 
Leahy. But it would be a liquid slurry that would be 
significant for a terrorist attack.
    So I think since 2008, our readiness has gone down. The 
threat has gone up.
    Mr. Meehan. That could be an individual acting, almost a 
lone wolf type-of situation, using materials that are 
obtainable?
    Colonel Larsen. If the FBI is right about the former 
scientist at USAMRIID, Dr. Bruce Ivins--if the FBI is right, 
and there is still some controversy about that, then one 
individual, using a pathogen that you could acquire out in 
Montana--Ted Turner lost nearly 300 buffalo a few years ago 
just because they ate in the wrong pasture and got anthrax. It 
is in the soil.
    The pathogens, with the equipment he used, you could buy on 
the internet today. So a single individual is capable of doing 
it, yes.
    Mr. Meehan. I will be interested--I want to hear Dr. Cole's 
commentary. But one of the points is intent. In your own 
report, we looked at the issue of intent and other kinds of 
things and how do you prepare to prevent every single 
individual, if a lone wolf?
    But I thought one of the conclusions was the ability to be 
immediately responsive to that kind of an attack.
    Colonel Larsen. Senator Graham and Talent have written 
several op eds on that issue. We define prevention----
    Mr. Meehan. Could I allow Dr. Cole to jump in on that while 
my time is expiring? Thank you, doctor.
    Mr. Cole. I have a feeling that what I am about to say 
might have been what Randy would be saying in any case, because 
we do agree on much of the assessments.
    In a sense, biological is both the best and the worst kind 
of a confrontation to have to deal with. Worst because, in 
worst-case scenarios, it can be absolutely devastating.
    Get a micro-organism that is resistant to antibiotics and 
other drug therapy, that is contagious, that is highly lethal, 
and you will have a catastrophe.
    Fortunately, a lot of moving parts would have to come 
together and work just right, especially if this is going to be 
airborne, starting with the right environmental conditions, no 
wind, no rain, no other variables that could affect the attack.
    But it could be terrible. On the other hand, best because 
probably more than any of the potential other weapons of mass 
destruction, CBRN, that there are potential defenses by way of 
vaccines, antidotes, antibiotics, that can deal with a variety 
of agents.
    Mr. Meehan. Do we have sufficient stockpiles of those? Are 
we prepared?
    Mr. Cole. Yes. Yes, we do have a strategic National 
stockpile, which is tied to one of the bills that we both refer 
to the PAHPA bill, Pandemic and All Hazards Act. That provides 
funding for the strategic National stockpile.
    Now the vaccines and the other drugs have shelf lives. So, 
unfortunately, they have to be replaced every few years. But 
the capability for defense and response is there at some level, 
with a little more comfort than virtually any of the other 
potential weapons that could be used against us.
    Mr. Meehan. Thank you. My time has expired. I am sure there 
will be follow-up questions on that.
    Let me now turn to the Ranking Member, my good friend Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Just on this issue of 
preparedness, there is a book written by Lawrence Wright called 
``The Looming Tower.'' In it, he recounts how an FBI agent 
physically got sick when the second plane hit the tower in New 
York City, because he knew that between the FBI and the CIA and 
various Federal and State law enforcement officials, they had 
the intelligence to stop, to thwart that attack on New York 
City.
    Because these barriers existed between Federal law 
enforcement agencies, that information was never shared. We all 
know what happened in the end.
    So, you know, the ability to thwart attack is based on 
having the resources and the information. That information has 
to be shared most effectively, so as to provide a coordinated 
response.
    As you may know, the Department of Homeland Security 
downsized the Urban Area Security Initiative Program, which 
provided funding to local and State law enforcement agencies in 
high-probability areas relative to a terrorist attack.
    I represent Buffalo, New York. We are situated on an 
international border, by the second-busiest border crossing 
between the United States and Canada at the Peace Bridge, high-
impact target.
    We are very close to Niagara Falls, a destination of some 
14 million people from all over the world, high-impact target.
    Close proximity to the Niagara Power Project, which 
produces the cleanest, cheapest electricity in all of New York 
State, high-impact target.
    We are close to Toronto, about 90 miles away, which is an 
international city, a high-impact target.
    Can you just comment on the importance of the Department of 
Homeland Security continuing these programs to ensure that 
these high-impact places--high-impact target places are 
properly funded?
    Because the last thing Buffalo wants to do is be on that 
list. But they are put on that list because they are in close 
proximity to these high-impact targets.
    So just the importance of these programs relative to the 
coordinated response of local law enforcement agencies.
    Mr. Cole. I will, in the sense that I get there is a bit of 
a competition here. Because the 2-mile stretch near Newark 
Airport, either way, is somehow in competition, I guess, for 
concerns about being the most likely target, since in that 
short span of a few miles, major New Jersey port, airport, rail 
system, oil tankers, and storage of chemicals.
    So we won't want to win that competition. But there are 
several locations in the United States that would be seen as 
prime targets. But let me slightly confuse the issue, because 
if you are going to be talking about biological weapons, there 
were critically injured people who were not initially 
recognized as having been infected with anthrax, even though 
they had symptoms, for various reasons, either misdiagnosed or 
the test didn't come through. But one of the victims lived in 
Mount Holly, New Jersey, not a great central concern for bio or 
any other kind of attack. Another lived in Oxford, Connecticut, 
a small, rural community, an hour's drive away from New York 
City.
    So in terms of the dangers, the targets, the worries, one 
has to be discrete about the kind of weapon and the kind of 
threat that you are dealing with.
    So I am very much concerned about urban and focused areas, 
as you suggest. But we can't let our guard down, especially the 
public health guard down, wherever there are citizens of the 
United States living.
    Colonel Larsen. That is a serious problem we have been 
dealing with. I got involved in this business back in 1994. It 
has always been, where do we spend the money? Where do we get 
the best return on investment?
    I agree, wherever we have U.S. citizens, we have to worry 
about them. Obviously there are targets that are much more 
likely that we have seen, where we were attacked on 9/11, New 
York and Washington, DC. The other airplane that crashed in 
Pennsylvania was headed this way also.
    The problem is: How do we get our best return on 
investment? We spent a lot of money after 9/11. We bought a lot 
of equipment for small fire departments that had no clue how to 
use it. There was no money provided by Congress for 
continuation training, which is a big deal to somebody in the 
military.
    You know, you have got to shoot that M-16 every year or you 
are not very good. So we wasted a lot of money, frankly. I 
don't like to see that as a taxpayer or as a National security 
expert.
    I will tell you, some the best investments I have seen DHS 
do, this study about how cities would respond if there were an 
improvised nuclear device that was detected. They spent a lot 
of money at Lawrence Livermore Labs. They did the research. 
They looked at this.
    Then they put it in a book that came out earlier this year. 
I am sorry I don't have a copy with me. But it is absolutely 
fabulous for first responders. That is the way I see DHS being 
a great help to State and local folks.
    State and local, they don't have the scientific knowledge. 
But the knowledge was put together about what you do. If you 
were the mayor of Buffalo and an IED went off in your city, you 
know what one of the first things you are going to need in 
July? Snow plow.
    Why would you need snow plows? Who would have thought of 
that? Because you have got to clear the streets because there 
is debris everywhere. You can't do stuff.
    First responders want to rush in and help people, right? 
But it may be too radioactive to go in there. So what do they 
say? If there is a big building there and half the glass is 
missing, don't go there because it is too radioactive.
    Very practical stuff that was provided; that is how I like 
to see DHS spend money. This other thing is a very difficult 
thing about where it goes in the big areas. I know that people 
in rural counties in Mississippi think they are in threat areas 
too.
    So that is why we let our political leaders make those 
final decisions. But I think you do need to understand the 
wisdom of Dr. Cole, the way he described it.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Meehan. Thank you, doctor.
    The Chairman now recognizes the gentleman from Missouri, 
Mr. Long.
    Mr. Long. Thank you, Chairman.
    Dr. Cole, as a physician, can you explain to the 
subcommittee what type of harm could be inflicted by a 
terrorist using a dirty bomb or even worse, an improvised 
nuclear devise?
    Mr. Cole. Yes. Well, I am not a physician. Actually, my 
degree is in dental medicine. But it is close enough for the 
purposes that we are dealing with.
    An improvised device on the order of a radiological or 
dirty bomb, unless the radiation released were highly intense 
and highly widespread, would be unlikely to cause the kind of 
imminent danger and damage that we tend to think of when we are 
concerned about a weapon of mass destruction.
    So the more likely released material would be Cesium or 
Cobalt, which are in medical instruments, machinery, and 
equipment. But the psychological effect--and when you speak of 
terrorism, you don't necessarily need to have fatalities as the 
end result for assessing success or failure.
    You could scare an awful lot of people if a radiation 
release occurred in a highly-populated area. Downtown 
Manhattan, there would be a fear and then an evacuation, for 
sure, a very quick evacuation.
    So we don't consider it an issue of concern for casualties. 
We do consider it a great concern for disruption and social 
disruption, particularly.
    Mr. Long. With Iran working towards--what we think is 
trying to build a bomb, what type of delivery device would be 
required to--if they did have the capability, what does it take 
to deliver that?
    Mr. Cole. Well, unfortunately, the kind of kilo-tonnage 
that was available with the bombs that were dropped in Japan, 
1945, were then very large and bulky. But you could get a 
suitcase-sized nuclear device, if it could be smuggled in 
somehow or brought to a center----
    Mr. Long. Detonated how?
    Mr. Cole. How would they do it? Carrying the weapon in a 
suitcase, if it were acquired someplace.
    Where could it be acquired? If not from a National----
    Mr. Long. You can carry a suitcase bomb----
    Mr. Cole. Yes.
    Mr. Long [continuing]. That you would have the ability to 
then detonate?
    Mr. Cole. That is correct. But if Iran were to do this--we 
tend to think of Iran not being so interested in suitcase 
bombing. Who knows how they would act? It is a very irrational, 
it seems to me, a very unpredictable regime.
    But our larger concern, from a large theater operation, 
would be their missile capabilities, as they would be probably 
their primary form of a delivery system.
    Mr. Long. From what you understand, are they close to that, 
as far as the delivery system?
    Mr. Cole. I am not qualified to say, except that I read 
what other, probably more, supposedly more experts have to say. 
You can get a variety of opinions. There are those who think 
that Iran is 4 to 6 months away from having a definite nuclear 
capability. There are others, some in the administration have 
spoken so, that think that Iran may be 1 year or 2 away.
    Nobody that I know, that I know personally or by way of my 
looking at the issues--nobody I know is comfortable with the 
notion that Iran is developing its nuclear capability only for 
peaceful purposes.
    Mr. Long. Well, that is why I am trying to learn as we go, 
because I have talked to everyone that I can about their 
capability, whether they can deliver the device, how they would 
deliver it. Because you hear all things all over the spectrum 
of what actually could be produced by Iran.
    Let me switch topics for just a second. Do you have any 
concerns that the way that we are securing commercial 
radiological materials could be vulnerable to domestic radicals 
or lone wolf actors?
    Mr. Cole. About 2, 3 months ago, an 82-year-old I think 
former nun, who was a peace activist, penetrated several 
degrees of security and had gotten to a nuclear facility.
    Now she and the people she was with did not actually get 
hold of or come in contact with the most dangerous portion of a 
nuclear energy plant, or wherever it was that she penetrated.
    So we certainly do have vulnerabilities. We also do have 
terrific security systems. But no security system is 
infallible. No one can ever be 100 percent comfortable.
    The evidence that we had, a U.S. citizen, as recently as a 
few months ago, got further into a network of apparatus than 
she should ever have been able to has to be a cause of concern.
    Mr. Long. Okay. Thank you both for your testimony today.
    I yield back.
    Mr. Meehan. Thank you, Mr. Long.
    The Chairman now recognizes the gentleman from Arizona, Mr. 
Barber.
    Mr. Barber. Thank you, Mr. Chairman. As you know, the 
district I represent is right on the border with Mexico. It is, 
I would suggest, the most porous section of our border, north 
and south, particularly south.
    It represents 50 percent of the drug seizures in the entire 
country, and nearly 50 percent of the illegal immigration in 
our entire country.
    So as a representative of that community, I am concerned 
about the safety of that community. But my question really 
pertains to the ability of bad actors to come through that most 
porous section of our border with weapons of mass destruction.
    My question is: What can we do to better train and equip 
the members of the Department of Homeland Security who are 
there to secure our borders, both the Customs Inspectors on the 
ports of entry, and the Border Patrol, who are typically back 
from the border in checkpoint kinds of places?
    What can we better do to equip and train them not just to 
look for drugs and people coming in here illegally, but people 
who might bring weapons of mass destruction or the mechanism to 
construct those weapons of mass destruction?
    What would you recommend we do?
    Colonel Larsen. I have been writing about that for a long 
time, sir. First of all--and I began by reading the al-Qaeda 
manual. It is available on the DNI website. They say make your 
weapons inside the countries you are going to use them.
    If you look over the last decade of attacks, whether you 
are talking about Spain or London or Indonesia or Turkey, they 
make their weapons there. The bomb that first blew up the World 
Trade Center in 1993 was made in New Jersey. It wasn't made in 
Afghanistan.
    The only exception to that is probably a nuclear weapon. 
Even the radiological dispersal devise that Mr. Long asked 
about--you know, I am reasonably comfortable with our enriched 
uranium, our bombs and stuff are reasonably secure. We can 
always improve.
    But all the hospitals that have Cesium 137 and Cobalt 60 in 
their cancer treatment facilities, that is very easily 
accessible. You wouldn't need to sneak a dirty bomb into the 
United States. Just go to a hospital and steal it, because they 
are not very well guarded.
    Biological weapons for pathogens are here inside the United 
States. So I don't think we should spend hardly any time trying 
to detect biological weapons coming into the United States 
because, I didn't do it today, but normally when I come to 
Congressional hearings, I carry my test tube of weaponized 
vaccilis, the VGI, the same one I carried into Vice President 
Cheney's office 9 days after 9/11 to demonstrate how easy it is 
to get it in.
    Mr. Barber. I am glad you don't have one.
    Mr. Meehan. For the record, we appreciate that you did not 
bring it today.
    Colonel Larsen. I did not bring it today, Mr. Chairman. But 
the serious one is the improvised nuclear devise, a highly 
enriched uranium, gun-type bomb. I am not sure it would fit in 
a suitcase. I know it will fit in a small family van, easily.
    The problem is if you shield it, our detectors won't find 
it. So putting more detectors on the border--I think I would go 
back to what the Chairman and senior Ranking Member talked 
about, is that intelligence information. It is finding that 
information.
    Some people want to scan every container that comes into 
the country. I think that is a waste of time. I am more 
interested in the information that is on the outside the 
container than trying to look inside, because there is so much 
information the private sector has about where did that 
container come from, who stuffed it? What companies were 
involved in that?
    Bringing that information together in a fusion system, so 
then we can tell those people on the border, don't worry about 
those 99 trucks over there, but this one you should really 
spend some time looking at. I think using intelligence to tell 
us where to look is the best way to go on that, sir.
    Mr. Barber. Thank you.
    Dr. Cole, do you have anything to add?
    Mr. Cole. Not really. In fact, as I listened to you, I 
would think that you may know, you should know, if I may, a lot 
more about the border area down there than some of us who do 
not focus on the cross-border issues. I don't say that in any 
way being critical.
    But from what I read as an interested citizen, we still 
have porous borders. Individuals can come over with whatever 
they care to bring with them. If they get away with it and they 
are here, they have brought something with them which they 
ought not to, whether it is in the form of a weapon of mass 
destruction or not.
    But Randy is certainly correct. You do not have to bring in 
exotic materials, with the exception of fissile material for a 
nuclear weapons, to have a threat issue here. We have plenty of 
opportunities domestically already in place, as he said, 
hospitals, research institutions. They have pathogens galore 
for honorable research purposes. For medical purposes and 
health purposes, we have radiological materials.
    Mr. Barber. Thank you, Dr. Cole, Mr. Larsen.
    I yield back.
    Mr. Meehan. Thank you, Mr. Barber.
    The Chairman now recognizes the gentle lady from 
California, Ms. Hahn.
    These don't work as well as ours do.
    Ms. Hahn. Thank you, Mr. Chairman.
    Well, you just kind of touched on what I was going to pay 
attention to. I come from a community that is right next to the 
Port of Los Angeles and Long Beach, which combined are the 
largest port complex in this country.
    We account for close to 45 percent of all the trade that 
comes into this country, comes those port complexes. We like to 
refer to them as America's Port. As the co-founder, along with 
my friend Ted Poe of Texas, we have started the Port's Caucus 
here in Congress. It is bipartisan.
    We are trying to raise the awareness of the importance of 
our ports as it relates to our economy, to jobs, but certainly 
to National security. I am still very concerned about what is 
coming and going through our Nation's ports. Apparently this 
Congress passed a law after 9/11 that was to require that 100 
percent of all containers are scanned.
    This administration and Secretary Napolitano has made it 
very clear to our committee that they have no intention of 
doing that. At this point, we only scan about 3 to 4 percent of 
our containers.
    I know a lot of it is about the point of origin. We want to 
know where it comes from. We kind of have now adopted sort of a 
level risk assessment approach of what we think might be 
dangerous.
    Sounds like from what you said, Mr. Larsen, I sort of agree 
with that.
    I want to know how vulnerable you do think our ports are, 
having these containers. You know, in Los Angeles, Long Beach, 
it is like 14 million annually. I am worried about weapons of 
mass destruction getting in through one of those containers.
    I am worried about a dirty bomb. I just want to go on 
record saying I don't think we are protecting the homeland when 
we are thinking that it is acceptable to scan just 3 to 4 
percent of these containers.
    I think technology is evolving. I think technology exists 
that is going to make it easier to scan without sacrificing, 
you know, commerce or jobs.
    I would like to hear a little just comment on where you 
think we are in terms of security with our ports. I feel like 
we have much more focused on airports and other areas which we 
felt were more at risk.
    But I will go on record saying I think our ports are our 
most vulnerable entryway into this country. What do you think?
    Colonel Larsen. I have sat here many times and had this 
discussion. I agree with you. A good return on investment for a 
terrorist would be to hit a sea port.
    Ms. Hahn. Yes.
    Colonel Larsen. I mean, look what happens if we have a 
strike, what that does to the gross domestic product.
    But my problem is yes, technology is improving, but physics 
is not changing. Highly enriched uranium, which they would most 
likely use to make an improvised nuclear device--plutonium is 
too hard.
    Improvised nuclear device, simple gun-type bomb, is a very 
low emitter of radiation. With the current technology we have, 
I think it is just a waste of our resources to try to do it.
    Trucks have to take such a long time to go through there. 
Then there is the operational issue. If you were a terrorist 
and wanted to bring a nuclear weapon into the United States, 
would you really put it inside a container and put a good 
padlock on it and then turn it loose in an international system 
where about 10 different countries would touch it before it got 
where it goes?
    I would never take my hand off of it. I would rent a 
corporate jet and fly it in here. So I just think it is--and 
then if you talk to--I don't know if Beth Ann Rooney is still 
the chief of security at the Port Authority of New York and New 
Jersey. Perhaps Mr. Pascrell knows it.
    But she used to say, okay, well, Congress wants us down at 
this end of the port scan 100 percent of those containers 
coming in. But that end of the port up there, we have 300,000 
automobiles that come off of railroad ships every year. 
Congress hasn't said to do anything about them.
    By the way, that highly-enriched uranium for a Hiroshima-
sized bomb would fit in the trunk of the smallest car that 
comes in here. We don't scan grain ships and ships carrying 
oil, petroleum products, or concrete or whatever.
    So I understand your concern. But if you are concerned 
about a dirty bomb going off on a port, then we should probably 
be scanning the trucks coming in from the land side also.
    Ms. Hahn. I couldn't agree more.
    Colonel Larsen. Okay, well, good. I am glad to hear that.
    Ms. Hahn. I am with you on that one.
    Colonel Larsen. If you are doing that one. It is a tough 
challenge. I understand it.
    But my concern now, in the new fiscal environment, is I 
want to spend the money where we get the best return on 
investment. That is my concern.
    Ms. Hahn. Thank you. But I think you made the point, if the 
best return on investment for a terrorist is to disrupt our 
economy, and by the way, it is not just the National economy. 
In the 2002 West Coast labor contract dispute, where the ports 
were shut down just for 10 days, where we knew, by the way, 
that we were going to have problems and cargo began to be 
diverted anyway, it was a $2 billion a day hit to this economy. 
The global economy was severely damaged just by the trade being 
stopped for 10 days.
    So I think it is still a target for terrorists, 
particularly because I don't believe our ports in this country 
are ready to recover as quickly as they should, which is 
something I am pushing for across the country, that we have a 
better recovery. Because I think that would lessen the 
attractiveness of disrupting our ports, if we knew how to get 
back up and running quickly.
    Colonel Larsen. Okay, we can say we are in 100 percent 
agreement on that. Beth Ann Rooney I think would go with us.
    How quickly can we get the port back open?
    Ms. Hahn. Right.
    Colonel Larsen. Or a water system in a major city?
    Ms. Hahn. Correct.
    Colonel Larsen. Whatever.
    Ms. Hahn. Now I am nervous about Los Angeles not having 
snow plows.
    Colonel Larsen. Los Angeles was detailed in that report. I 
can get you a copy of that. It is very good.
    By the way, sheltering in place will save 500,000 lives in 
Manhattan, 270,000 lives in Los Angeles county. Simple as that, 
shelter in place.
    Ms. Hahn. Thank you.
    Mr. Meehan. Thank you, Ms. Hahn.
    The Chairman now recognizes Mr. Pascrell. But before doing 
so, once again, I want to reiterate our great appreciation for 
his on-going interest and leadership in this area.
    The gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. Thank you, Colonel 
Larsen, Dr. Cole, thank you for all of your work in this area.
    We have made some progress. You know, we now base our 
grants, our money on risk assessment, which we didn't do in the 
very beginning.
    Thanks to Chairman King and I being real pains to both 
administrations, I think we are there in assessing what is the 
greatest risk, both the risk in New Jersey, which the FBI 
claims is the risk, really, and the toxins that are on the 
turnpike in Elizabeth, with those tanks.
    Since you brought it up, it is estimated that if someone 
detonated something in the center of where most of those tanks 
are, and knowing the toxins that are in there--of course, 
people need to know. They have a right to know. We went through 
that in this committee many years ago.
    It could kill a lot of people. Or at least a million people 
would be in danger. I am not exaggerating this. It is not 
hyperbole. Then we have the big debate as to how, well, how do 
we protect these tankers?
    The chemical industry got its back up. We got its back up. 
They got good laws, by the way, in New Jersey. Probably passed 
those laws about 10 years ago--15 years ago. They make a lot of 
sense. They make a lot of sense.
    Here is my question, the legislation that Peter King and I 
introduced on weapons of mass destruction, which is really the 
last part of the 9/11 Report that we haven't done anything 
about--we still haven't.
    We got it past committee in a bipartisan fashion. It is 
sticking out there like a sore thumb. I mean, it is either 
needed or it is not needed. Since we have really a lot of 
things to attend to, an attempt to plug the holes that exist 
there.
    So both of you: What is your opinion of the legislation? Is 
it adequate? It is in an adequate response to the problems that 
we have identified? Or must more be done?
    If you will, on the legislation's call for--we ask for a 
special assistant for bio-defense that reports directly to the 
President. Now we have made many mistakes, this committee, a 
long time ago, before this present Congress, on adding to the 
bureaucracy. That is the last thing we want to do.
    We have now got about 85,000 employees. I know the 
Secretary is reviewing their interactions with each other. So 
maybe something will come out of it.
    Do you think we need a special assistant for bio-defense, 
colonel?
    Colonel Larsen. Absolutely. We said it at the WMD 
Commission. We said it at the WMD Center. Today, we have more 
than 2 dozen Presidentially-appointed, Senate-confirmed 
individuals working on bio-defense. Not one has it for a full-
time job and no one is in charge.
    It is like having a football team without a head coach.
    Mr. Pascrell. That doesn't make sense to me.
    Colonel Larsen. It doesn't. The Clinton administration had 
one and the Bush 43 administration had one. So 100 percent 
agree with that.
    At the WMD Center, we work very closely on the WMD bill. We 
strongly support virtually every part of it. I think your 
biggest challenge is to get it through Congress and all of the 
overlapping jurisdictions.
    Mr. Pascrell. That was my next question.
    Colonel Larsen. Well, okay, when the World of Risk came 
out, you had 88 committees and subcommittees doing homeland 
security. They said you have got to fix that.
    So then when the second year of the WMD Commission and we 
did our report card, you had 104. That is why we gave you an F.
    There were three Fs in that report card: Being prepared to 
respond to a bio-attack, retaining the top scientists and 
engineers we need in Government, and No. 3, Congressional 
reorganization.
    Now I know that I am talking to the choir here. But if we 
don't fix that, we will have a problem. But we fully support 
that piece of legislation, along with PAHPA. We need those 
together.
    Mr. Pascrell. Dr. Cole.
    Mr. Cole. Yes, of course, I do support it. But just let me 
inject a sympathetic matter of realism. We tend to respond, we 
all know, as human beings, to the most recent incidents.
    When something doesn't happen and we are told that it is 
likely to happen, and then we get past it, it is the boy who 
cried wolf, which is one of the concerns that I have about how 
the initial WMD Commission Report has been interpreted, that if 
we don't have an attack by the end of 2013, it is going to seem 
as if these guys were all wet and they really didn't have the 
right juice when they were making their decisions.
    I would say, first, the wording was very cautious. There is 
a more likely chance than not, they said, that there will be an 
attack by the end of 5 years from the issuing of the report. Of 
course, that leaves them a window to walk through and say, 
well, we didn't say definitely.
    Furthermore, they said, it is more likely that it will be a 
biological than a nuclear agent, which cannot discount the 
strong possibility that it would be a nuclear rather than 
biological. So we can't get caught up in our own 
reinterpretation of what was tentative, and make it sound as if 
it was an absolute prediction.
    It was not. It was a way of getting attention. I think it 
was an appropriate way to get attention. People aren't going to 
listen to you if I just said to you, hey, you know, we ought to 
start worrying about X, Y, Z. You have got to know why. You 
want to know the details. If I still am not convinced, if you 
say ``if you don't listen to me by December 31 of such and such 
a date, you are going to be sorry,'' then I might pay a little 
more attention.
    We did get attention for this. It is human nature. I have 
heard the argument that, well, maybe it isn't so bad for us to 
reduce considerable spending--and it would cost money, the bill 
that you are suggesting--because we haven't had an attack in 11 
years. Look how far back it is.
    Well, my response to that always is: Should we stop being 
concerned about hostile use of nuclear weapons, since the last 
time that took place was 70 years ago?
    So we have got to be realistic. A biological threat is 
real, by any decent measure. I do believe that what your bill 
proposed--and I haven't read the bill recently. But certainly 
having a single individual at the top, the manager in chief, 
who can advise the President directly, would be a major step 
forward.
    Mr. Pascrell. Mr. Chairman, I want to thank you for your 
work. Thank you for allowing me to sit on this panel.
    Dates, they move. Chronology doesn't. We have not done a 
good enough job, in my estimation, of informing the public, 
because we do not want to relate to critical issues that may 
expose confidence and expose intel. But there is no question in 
my mind that having seen enough, generally we can say, our 
enemies, internal and external, troll the system every day. 
Every day.
    If Americans knew that and believed it--maybe they don't 
believe it. I am not sure. If Americans knew that, then they 
would put pressure on us, say, what are you fools doing? Let us 
make a move here. Let us do something to put things into 
perspective, that this is serious business.
    We needed a hurricane. You know, we needed this hurricane 
to wake us up on one level. We have an economic hurricane that 
we are--I am surprised that both sides are almost saying, well, 
let it happen, we will recover, just look at it the other way.
    This is serious business. Again, this is not reality TV. 
This is serious business. So I hope, Mr. Chairman, in your 
influence is that we get some movement on this, because I think 
these gentlemen are here not to spin wheels. They are here to 
see some action.
    Thank you very much.
    Mr. Meehan. Thank you for your kind comments, Mr. Pascrell, 
but also, as you said, your continuing efforts. That is one of 
the reasons that we wanted to make sure that we held this kind 
of a hearing, to keep the awareness and the scrutiny there.
    So thank you for your interest.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Green. Thank you as well for your continuing interest in this 
issue and in the activities of the committee.
    Mr. Green. Thank you, Mr. Chairman. I would like to add my 
commentary to those which indicate that you have been more than 
amenable to working with us to come to some sort of a consensus 
on questions of this kind. It is, indeed, absolutely necessary 
that we come to some sort of a consensus as quickly as 
possible.
    I have never had my car stolen, but I do lock my doors. I 
do buy insurance in the event that some professional decides 
that locked doors are not enough to deter the taking of my 
vehicle. I see a need for more insurance as we go through this 
process, to make sure that we are prepared not only for the 
professionals, but also for the opportunists.
    Right within our confines, within our country, we have 
persons who are mal-adjusted, who would do us harm. I think we 
have be prepared for both.
    Is there a definitive piece of work on the economic 
consequences of a WMD attack? I ask not because I in any way 
diminish the value of human life. I understand the consequences 
associated with persons being harmed, people being harmed.
    By the way, if one person is harmed, that is one too many. 
But economic consequences have a way of impacting a broader 
spectrum of personalities. Is there a definitive work on the 
consequences of a WMD attack at some strategic point within the 
United States?
    Colonel Larsen. Yes, sir. One of the best ones was the 
Council of Economic Advisers, in the last year of the Bush 
administration, looked at what 2 pounds of dry powdered anthrax 
would, economic--I mean, they listed everything in there.
    Secretary Chertoff used it in his briefings all the time. I 
can get you that information. It is shocking, the things we are 
talking about.
    For instance, we don't know how to clean up a city. If you 
took 2 pounds of dry powdered anthrax and released it in New 
York City, the EPA does not know how to clean that up.
    By the way, the budget for EPA this year to do research on 
that is half of the budget for Marine Corps marching bands. Now 
you have got to ask: Do we have the right priorities?
    I am a big fan of Marine Corps marching bands. But I can 
tell you, you know, that is one of the big economic costs. 
Because if you don't clean it up, you can't go back in there.
    Same for a dirty bomb. It is not going to kill many people. 
It is an area denial weapon. That is how we refer to it as the 
military.
    So I can get you that study. I would also say, at the 
University of Southern California, they have a center out there 
that is funded by DHS that specifically looks at economic 
impacts of all sorts of terrorism. That I think will answer 
your questions, because the economic impact is sometimes 
greater than the people that would actually be killed, in some 
attacks.
    Mr. Green. Dr. Cole.
    Mr. Cole. Yes, I think I can add to this, because I did a 
study on the economic effects of the anthrax attacks, the 
anthrax letters. Let me start by saying that the total 
estimated volume of all of the anthrax powder that went into 
perhaps a half-dozen letters would have been less than a 
handful of Aspirin tablets. That is how small the total volume 
was.
    We talk about, ``only 22 people became sick, five of whom 
died.'' The fact is that more than 30,000 people were seen at 
risk of exposure and they had to have--they had to take 
antibiotics, prophylactic antibiotics.
    Chairman Meehan, in your introductory remarks, you 
mentioned the FBI estimated that the cost of the anthrax 
attacks was over $1 billion. I produce figures that come closer 
to well over $6 billion just for those letters.
    My finding was, unlike I guess the FBI, because I don't 
know what was behind their figures, that lost revenue to the 
Postal Service alone amounted to more than $2 billion, based on 
revenue that the U.S. postal system had taken in the year 
before and the year after.
    So during that 1-year period following the anthrax events, 
people stopped using the Postal Service, dropping it by 10 
percent. That alone was $2 billion.
    Then the countless imponderables, from man/woman hours 
spent by FBI personnel, by the CDC personnel, by local law 
enforcement people, by the public health authority.
    I would say that $1 billion is an extremely conservative 
and, in my judgement, under-estimation of what the total dollar 
cost was.
    Now all these other assessments about what would happen if 
there were something have to be taken with a grain of salt, 
knowing that they are still theoretical.
    What I looked at was real. We did have that minimal event. 
We did have major financial consequences.
    As Randy mentioned before, the total cost, even if we take 
the most expensive machinery and equipment, couldn't have been 
more than $50,000 for all the equipment that would be necessary 
to process those spores.
    The total delivery system, I think it was, whoever of you 
distinguished Congresspeople mentioned the question about 
delivery system. The deliver system was the U.S. Postal Service 
mail, between $5 and $10 in postage and mail and stationary. 
That was the delivery system.
    So you talk about extreme variability and shocking 
differences between the minimal cost for creating a lot of 
havoc, that cost at the very least several billion dollars in 
consequences.
    Mr. Green. Mr. Chairman, if I may, just a final comment. I 
want to comment on Mr. Clark Ervin, who does an outstanding 
job. You have complimented him.
    Sometimes we find that super men don't always wear a 
disguise. He truly has been super at performing this task.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meehan. Thank you, Mr. Green.
    I just have one concluding question myself for the two 
panelists. As you discussed modible sort of platforms and 
issues that we have to be concerned with, the one thing you 
focused on, that I would like to sort of get some concluding 
responses, is the vulnerability of not weapons-grade, but the 
radiological materials that are used in everyday medicine and 
other kinds of things, and the extent to which there is a 
genuine threat that could be realized by access to those kinds 
of materials.
    What can we do to better secure that, if in fact you think 
it is a genuine threat?
    Colonel Larsen. Sir, I am not fully up-to-date. I know that 
DHS had a program at one time, that they were going out to 
hospitals. The Government, Federal Government, was paying to do 
things that would far better secure it.
    Because at one time a few years ago, you could get that 
material out of a hospital in 10 minutes. What this system that 
DHS was doing--I don't know the current state of it. You could 
certainly ask them.
    But it doesn't fool proof it. But it means that like or 30 
or 40 minutes and it sets off an alarm.
    That is what you really need. We can't afford fool-proof 
systems, but something that you just can't walk out with it in 
your pocket. So hopefully that is the kind of program that 
would be funded that would be very helpful, because, I tell you 
what, that is one of the more likely scenarios.
    There is so much of it out there. You go to any major 
hospital, it is there.
    Mr. Meehan. Dr. Cole, any thoughts?
    Mr. Cole. My quick thought is I cannot count the number of 
times, and any of you who have been to a hospital lately will 
recognize that all you have to do is walk in for the most part. 
Yes, some of them have security desks and you will be asked why 
you are there. You can say that I want to visit a patient in 
room 417 and you will get a card, almost always.
    I don't favor metal detectors and super security at these 
institutions. But as we stand now, if you need more things to 
worry about, it would seem to me that that is one of the soft 
targets that we have got in the United States, hospitals, as an 
individual can walk in. Whether or not they can get to a 
radiological material--and presumably they should they should 
if they know their way about there--they presumably could get 
to some.
    But that concerns me. Thank you.
    Mr. Meehan. Thank you for your observations. Anybody else 
have any other?
    Well, in lieu of that, I want to thank the witnesses for 
your very valuable testimony and the Members for your 
questions. The Members of the committee may have some 
additional questions for witnesses. I will ask if they do, that 
you respond in writing within the--because the record will 
remain open for 10 days.
    Thank you, again, for not only your presence here today, 
but for your continuing work on the vanguard of this important 
issue.
    So without objection, the committee stands adjourned.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairman Patrick Meehan for Leonard A. Cole
    Question 1. In your report, you rightly focus on the unstable 
security situation in Pakistan, a country teeming with violent 
extremists, including Taliban, the Haqqani network, and Lashkar-e-
Taiba, as well as the remnants of al-Qaeda's central command.
    How confident are you that in a situation of prolonged militant 
violence and chaos that the Pakistani military would have the 
capability to safeguard the country's nuclear arsenal from terror 
groups?
    Answer. On this question I conferred with Charlie Allen, a fellow-
member of the Aspen working group, who has considerable knowledge about 
this subject. He observed that the United States has worked closely 
with Pakistan's military commanders, who themselves are very concerned 
about maintaining security of their nuclear facilities. The commanders 
by and large are careful to prevent extremists from serving in the 
military, and he has ``moderate confidence'' that Pakistan has a good 
capability to safeguard its nuclear arsenal under present 
circumstances. He is less confident about security, however, when 
weapons or even small quantities of fissile material are moved from one 
location to another.
    This assessment would change for the worse if Pakistan were to face 
heightened political violence and instability. If, for example, 
Pakistan were to experience the kind of upheaval that has embroiled 
Syria, the ensuing chaos would likely enhance opportunities for 
terrorists to acquire fissile material as well as ready-made bombs.
    Question 2. In testimony before the Homeland Security Full 
Committee, Senator Jim Talent said he believed that we have an 
opportunity to remove bioterrorism from the category of weapons of mass 
destruction. I think most people probably think of WMDs as something we 
can prevent or respond to, but not actually take off the table 
entirely.
    Do you believe it is possible to completely eliminate bioterrorism 
as a threat? If so, how?
    Answer. It is no more possible to completely eliminate bioterrorism 
as a threat than to completely eliminate infectious disease. That said, 
bio-threats can certainly be reduced and become less appealing to 
would-be perpetrators. I see four distinct approaches to reducing the 
bioterrorism threat. First: Further develop medical countermeasures 
(antibiotics, antivirals, vaccines, etc.), as underscored in the Aspen 
Working Group report. Second: Establish uniform security requirements 
for laboratories and institutions that work on select agents (i.e., 
pathogens deemed to be the most consequential threat agents). The CDC's 
recently-revised select agent list includes steps in this direction. 
Third: Severely punish groups or states that take steps to develop such 
weapons. Fourth: Strengthen the Biological Weapons Convention (BWC). 
This international agreement bans bioweapons and describes their use as 
``repugnant to the conscience of mankind.'' Highlighting this moral 
norm is of value. Even those without moral qualms about using 
bioweapons could be deterred by the realization that such behavior 
could lessen support for their cause.
    Question 3. The President has stated that his administration will 
focus more on prevention of biological threats than has been done in 
the past, and robust intelligence will be key to such an effort.
    Do you think that the Nation's stockpile of medical countermeasures 
offers sufficient deterrent to actors considering using a biological 
weapon? If not, what more must be added to it?
    Answer. Knowing that the United States maintains stockpiles of 
medical countermeasures might lessen the inclination by some to use 
bioweapons, but countermeasures alone are an insufficient deterrent, as 
suggested above. An enterprising terrorist could seek a bio-agent that 
is not now susceptible to treatment, such as the Ebola virus or a drug-
resistant strain of anthrax or plague bacteria. While it is important 
to maintain stocks of countermeasures for susceptible agents, efforts 
should also be directed at developing defenses against currently 
unsusceptible agents.
    Question 4. Securing high-containment biological laboratories was a 
key recommendation of your report.
    How key is the international component of this--how much should we 
be helping other nations secure their labs and build their public 
health capacity, given that pathogens simply do not respect borders?
    Answer. Helping other countries to secure their labs and build 
their public health capacity deserves high priority. We also need more 
of this at home. At present, there are no uniform standards for 
security at high-containment laboratories in the United States. (I 
develop this point further in an article at this link: http://
www.ctc.usma.edu/posts/bioterrorism-still-a-threat-to-the-united-
states.) Similarly, the public health infrastructure in the United 
States needs revitalization. In recent years, reduced funding has 
resulted in the loss of thousands of local and State public health 
employees. Apart from bioterrorist threats, strengthening public health 
capacity at home and abroad should be appreciated as important for the 
general well-being of society.
    Question 5. According to Bob Graham and Jim Talent, there may be a 
time period after an attack when a prepared, efficient response could 
limit the size and scope of the attack by orders of magnitude. For 
instance, a well-prepared nation can use the incubation period of a 
disease-causing agent to its people's advantage.
    What are some practical steps that can be taken by the Government 
to ensure that a prompt response with effective medical 
countermeasures, such as antibiotics and vaccination, can be improved 
and effectively deployed in the instance of such an attack?
    Answer. This fact should be underscored: Unlike for other forms of 
terrorism, a window of time (perhaps several days) exists after 
exposure to a bio-agent during which medical countermeasures could 
markedly reduce ill effects. Ideally, local authorities should have 
pre-identified locations for receiving antibiotic and vaccine 
deliveries from existing stockpiles, and then for dispensing them to a 
population. I observed a week-long exercise in New Jersey involving a 
rehearsal for the aftermath of a bio-attack. Mock medicines were 
dispensed at schools, social halls, and other designated locations 
throughout the State. Similar exercises in Israel have much to teach 
about orderly preventive care for large numbers of people.
    Question 6. At least half-a-dozen Federal agencies are engaged in 
``biomonitoring,'' meaning they look for signs of infectious disease in 
air, water, or other media. The Department of Homeland Security is most 
known for its BioWatch program, a series of detectors in over 30 major 
U.S. cities that seeks to reduce the time to detection if a terrorist 
or naturally-occurring infectious agent were to be released into the 
air.
    If the biodefense budget were yours, how would you prioritize 
expenditures on biomonitoring in the context of all of the many other 
needs in the spectrum of dealing with the biological threat?
    Answer. Current BioWatch detector systems, which can take 36 hours 
before indicating the presence of a dangerous agent, have at times 
signaled false positives. Development of a quicker and more accurate 
version is behind schedule and burdened with cost overruns. This has 
prompted criticism of biomonitoring and questions about whether the 
BioWatch program has been worth the cost. Still, the concept is 
alluring and to abandon the program entirely seems unwise. As I have 
indicated elsewhere, before BioWatch we were all canaries in the coal 
mine. Only after people died or became ill did we become aware that a 
bio-agent had been unleashed. (http://www.hstoday.us/focused-topics/
public-health/single-article-page/front-lines-biowatch-beyond-canaries-
in-the-coal-mine.html) Despite its shortcomings, I think the program is 
worth continuing, certainly at the research and development level. At 
the same time, other biosecurity needs, such as enhanced lab security, 
could be deemed a higher priority. Scarcity of resources may require 
that funding levels for BioWatch be reduced.
    Question 7a. A new field of bioforensics emerged after the anthrax 
attacks of 2001. The Department of Homeland Security now operates a 
major bioforensics laboratory, the National Bioforensic Analysis 
Center, used extensively by the Federal Bureau of Investigation.
    Do you think our National capability for bioforensics has grown 
sufficiently to meet the need?
    Answer. Microbial forensics, also called bioforensics, was 
established in the mid-1990s in FBI laboratories under the leadership 
of then-FBI scientist Randall Murch. The field was further developed 
during the anthrax investigation and was key to the FBI's contention 
that the spores mailed in 2001 were generated from spores found in the 
flask of a Government scientist. Microbial forensics (bioforensics) 
unquestionably has advanced the capability to identify pathogens and 
their sources through genetic analysis. But critics have also 
questioned the validity of claims made about the accuracy of some 
techniques.
    The Department of Homeland Security and the FBI are now lead 
agencies in the field, though other Government agencies have also 
participated at some levels. Our National capability has grown 
reasonably well. Still, some have expressed concern that funding for 
R&D be directed to the most knowledgeable in the principal agencies and 
not be dispensed via a sprawling bureaucracy to less experienced 
claimants.
    Question 7b. Do we need to be doing more than what we're doing, 
such as building a capable bioforensics workforce for the future?
    Answer. The potential workforce in this area seems to be 
sufficient. As Murch has observed, many young people are being trained 
in relevant fields. It does not appear necessary to create a special 
program for training in this field.
    Question 8. The interest among al-Qaeda and its affiliates in 
chemical, biological, radiological, and nuclear weapons remains a 
concern. Although they have not been successful in developing such 
weapons, active research programs or activities could be leveraged into 
weapons programs in light of instability in countries like Syria, Iran, 
and Pakistan.
    Do you view such possibilities as threats to overseas allies and 
American interests, or do you foresee a real possibility that this is a 
threat to the homeland itself?
    Answer. I don't discount the concerns raised in this question, 
though I doubt that a country's instability in itself makes it more 
likely to harbor a WMD program. In fact, al-Qaeda's efforts to develop 
a bioweapon and acquire a nuclear weapon were underway in Afghanistan 
when that country was relatively stable albeit under Taliban 
governance. If such weapons become available to a group like al-Qaeda, 
the threat, whether to the U.S. homeland or to overseas allies, would 
be intolerable.
    Question 9. Your report states that ``the U.S. Government has 
limited ability to reduce intent of hostile actors and virtually no 
ability to reduce the capability of our enemies to produce such 
weapons.''
    Tell me about our lack of capability to reduce terrorists' 
capability--are sanctions and export control measures insufficient? 
Where is the weak link here?
    Answer. The quoted passage refers to biological weapons, which can 
be produced at low cost (for readily available equipment) and in a 
space the size of a small kitchen. Thus development activity is quite 
easy to conceal. Further, select agents can be acquired from a variety 
of sources: Research facilities, hospital laboratories, natural 
habitats. Sanctions and export controls may somewhat impede acquisition 
efforts, but a determined individual could be expected to seek other 
pathways to acquisition.
    Question 10. Only weeks after the terrorist attacks of September 
11, 2001, a Nation-wide anthrax attack sickened 22 people and took 5 
lives. Coming on the heels of 9/11, this hit us like a ton of bricks. 
The effects were significant, and yet could have been much worse.
    In what ways did these anthrax attacks increase activities toward 
prevention and response? You have alluded to a complacency--has 
complacency set in about the biological threat after 11 years of quiet 
on this front?
    Answer. The anthrax attacks prompted a surge of bio-security 
efforts, some of them wasteful. A prime example was the hasty 
Government award in 2004 of an $877 million contract for production of 
a new anthrax vaccine. The recipient company, VaxGen, had never 
previously made a successful vaccine or drug. After repeated failures 
in production the contract was terminated, resulting in lost time, 
money, and public confidence. But biodefense spending has also brought 
benefits deriving from basic research as well as on-the-ground 
protection. Biodefense spending on research, for example, has advanced 
the understanding of immune system responses. Maintaining the Strategic 
National Stockpile enables quick availability of supplies to a site of 
terrorism or disaster anywhere in the United States.
    The passage of 11 years since the attacks has reduced the sense of 
urgency and cut into preparedness efforts. Most striking has been the 
weakening of the Nation's public health infrastructure. This affects 
not only response capabilities for terrorism, but for all disasters--
most recently Hurricane Sandy. Per the observation in 4a (above), 
budget cuts have resulted in a loss of 40,000 public health workers 
since 2008. (Prior to these job losses, the local public health 
workforce throughout the Nation numbered 250,000.)
    Question 11. In October 2011, once we became aware that we were 
dealing with an anthrax attack, as many as 32,000 people who may have 
been exposed initiated preventive measures in the form of antibiotics. 
Administration of antibiotics on such a large scale had never before 
been attempted by the public health system. Some things worked, others 
did not. Today, mass administration forms a cornerstone of our National 
strategy to mitigate the effects of a bioattack, because they are so 
difficult to prevent in the first place.
    Eleven years later, how would we do if this happened tomorrow? 
Would distribution and dispensing be as efficient, or more efficient, 
and would patient compliance be improved?
    Answer. During the 2001 anthrax attacks, appropriate antibiotics 
were in short supply in some areas because pharmacy inventories had 
been depleted by demanding customers. Presumably this issue would now 
be addressed by rapid deliveries from the Strategic National Stockpile. 
Moreover, in May 2012, in response to a mock anthrax attack, postal 
workers distributed ``antibiotics'' to 37,000 residents in the 
Milwaukee area. The exercise was deemed a success, as have been similar 
exercises in other cities. These rehearsals allow for guarded optimism 
that drugs could be quickly dispensed in a discrete region after a real 
attack. Still, most areas of the country have not engaged in such 
exercises, and like much else concerning preparedness, capabilities for 
distribution vary from one community to another.
    Question 12a. I noticed in reviewing your report that it makes very 
little mention of chemical terrorism. Chemical agents such as sarin, 
mustard gas, and other noxious materials have long been of interest to 
terrorists. We are all aware of the chemical weapon stockpiles in 
Syria, and the possibility that some of these could fall into the hands 
of terrorists.
    Regardless of the semantics over whether chemical weapons should be 
considered ``weapons of mass destruction,'' is there, or is there not, 
a continued threat of terrorism with chemical agents?
    Answer. There is indeed a continued threat of terrorism with 
chemical weapons, especially if terrorism is broadly understood to 
include fear, hysteria, and social disruption. This is playing out now 
with huge worries that the Syrian government might unleash sarin and 
mustard on its own people, or that Syria's chemical weapons could fall 
into the hands of terrorists. Memories of the tortured deaths resulting 
from past chemical attacks underscore these concerns: For example, 
Saddam Hussein's 1988 chemical attack on Iraqi Kurds or the 1995 
release of sarin in the Tokyo subway by the cult Aum Shinrikyo. Our 
report's focus on the biological and nuclear threats reflects the WMD 
Commission's determination in 2008 that they are the more likely 
heavily consequential forms of terrorism to occur.
    Question 12b. Are we taking the necessary measures to prevent the 
proliferation of chemical weapons and are we preparing our first 
responders and others to deal with the possibility of a chemical attack 
against our Nation?
    Answer. As with biological weapons, the development, stockpiling, 
or use of chemical weapons is prohibited by international agreement 
(Chemical Weapons Convention). Unlike the BWC, the CWC includes 
elaborate protocols for inspections, verification of compliance, and 
penalties for violations. Thus the CWC helps lessen the likelihood of 
chemical use both in its allowance for pragmatic measures and its 
reassertion of the moral norm. Still, some countries might try to 
cheat, and Syria remains one of few countries that are not party to the 
CWC. Moreover, several terrorist groups have asserted their wish to 
acquire chemical and other weapons of mass destruction. Thus vigilance 
and protective measures are also necessary. In this regard, hundreds of 
designated chemicals (and biological agents) are subject to export 
controls, which buttresses efforts to prevent proliferation.
    The availability for first responder groups of special outerwear, 
masks, antidotes, and other protective measures is essential. Nerve 
agents are of particular concern since they can quickly pass through 
normal clothing and cause death after skin contact or inhalation. My 
impression is that Nation-wide, numerous responders have drilled while 
wearing protective outfits. I do not know how many in any group of 
responders have rapid access to such gear.
    Question 13. My understanding is that one of the challenges the 
intelligence community faces when it comes to assessing the very 
existence of bioweapons programs is the ``dual-use'' issue. All of the 
beakers and test tubes and PCR machines that would be needed to develop 
a biological weapon are in use for legitimate purposes every day in 
laboratories and hospitals in almost every nation in the word.
    How serious a problem does the dual-use issue pose both for 
understanding the extent of the threat, and for preventing it?
    Answer. Dual-use concerns are extremely challenging and sensitive. 
Procedures to grow and manipulate microorganisms for legitimate 
research parallel procedures to grow and manipulate agents for hostile 
purposes. Deciphering the conundrum depends on establishing the intent 
of the operator. This may require inquiring into a laboratory worker's 
private affairs, which might be viewed by some as inappropriately 
intrusive. Yet in 2008 when the FBI named Dr. Bruce Ivins as the 
perpetrator of the 2001 anthrax attacks, it indicated he had a history 
of mental health issues. Years earlier, while developing an anthrax 
vaccine at the army laboratory in Fort Detrick, he emailed a coworker 
that he had paranoid, delusional thoughts. Apparently his superiors 
were unaware of this. Whether or not he was guilty of the anthrax 
crime, Ivins's self-acknowledged problems should have disqualified him 
from contact with a select agent.
    Oversight of research involving select agents should include 
scrutiny of behavioral characteristics of operators. Uniform standards 
for lab safety, which are now lacking, should include protocols for 
inquiring into personal lives when necessary.
    Question 14. The Aspen report indicated that shrinking budgets for 
biodefense have left the Nation underprepared. While that may be true, 
I have to point out that we spend half-a-billion dollars each year on 
civilian biodefense, and that figure is more like $5 billion when you 
include other related programs that benefit biodefense. That's a lot of 
money, and I haven't seen an argument that convinces me that more money 
is needed; but rather, that the money we are spending needs to be spent 
more wisely.
    What are your recommendations for this?
    Answer. I doubt that more money is needed for biodefense programs 
and I agree of course that funds for biodefense should be spent wisely. 
In assessing how funding might better be apportioned, I suggest the 
following:
    1. Assess whether a program's benefits are aimed exclusively at 
        biodefense and unlikely to be of value in other spheres.
    2. Unless an exclusively biodefense project is extremely 
        compelling, it should not be deemed a funding priority. For 
        example, I do not think more highest-level containment 
        laboratories (expensive to build and maintain) are a priority 
        need. Of far greater value would be to broaden the medical 
        community's knowledge of the field of terror medicine, which 
        also overlaps into disaster medicine.
    3. Favor research that is applicable not only to biodefense but 
        that also promises to enhance overall health and safety, such 
        as the development of antibiotics, antivirals, and vaccines.
    4. In seeking to reduce waste and duplication, heed the 2011 GAO 
        report's observation that ``there is no broad, integrated 
        National strategy that encompasses all stakeholders with 
        biodefense responsibilities that can be used to guide the 
        systematic identification of risk, assessment of resources 
        needed to address those risks, and the prioritization and 
        allocation of investment across the entire biodefense 
        enterprise.'' (http://www.gao.gov/new.items/d11318sp.pdf) (Also 
        see the WMD Center's Report Card, http://www.wmdcenter.org/
        ?page_id=183.) Addressing these deficiencies should include 
        establishment of a National strategy on biodefense; 
        streamlining decision making on biodefense issues, which is now 
        fractured among a multitude of agencies; appointment of a 
        special assistant to the President for biodefense.
      Questions From Chairman Patrick Meehan for Randall J. Larsen
[NOTE.--The responses herein are solely those of Randall Larsen and do 
not necessarily reflect the opinions of the Aspen WMD Study Group or 
the Bipartisan WMD Terrorism Research Center.]

    Question 1. In your report, you rightly focus on the unstable 
security situation in Pakistan, a country teeming with violent 
extremists, including Taliban, the Haqqani network, and Lashkar-e-
Taiba, as well as the remnants of al-Qaeda's central command.
    How confident are you that in a situation of prolonged militant 
violence and chaos that the Pakistani military would have the 
capability to safeguard the country's nuclear arsenal from terror 
groups?
    Answer. As WORLD AT RISK notes: `` . . . despite Pakistan's 
military commanders' assurances that the country's nuclear arsenal 
remains secure, political turmoil and attacks on major military targets 
fuel continued concern. One can easily envision scenarios in which 
terrorists, rogue elements in the military, or combinations of the two 
seize a nuclear weapon or some component, such as a fissile core. Under 
such circumstances, the situation would be unclear and loyalties 
uncertain.''
    Planning for such situations is prudent.
    Question 2. In testimony before the Homeland Security Full 
Committee, Senator Jim Talent said he believed that we have an 
opportunity to remove bioterrorism from the category of weapons of mass 
destruction. I think most people probably think of WMDs as something we 
can prevent or respond to, but not actually take off the table 
entirely.
    Do you believe it is possible to completely eliminate bioterrorism 
as a threat? If so, how?
    Answer. Unfortunately, the on-going revolution in biotechnology 
will make bioterrorism more likely. In the coming decade it will become 
the ultimate asymmetric weapon--available to all nation states, many 
terrorist organizations, and on a smaller scale, even some lone wolf 
terrorists. (See atch No. 1 for WMD Center's risk assessment).*
    We cannot remove bioterrorism as a threat, but as Senators Talent 
and Graham described in a 2010 article in Biosecurity and Bioterrorism: 
Biodefense Strategy, Practice, and Science, Volume 7, Number 2, 2009 
(atch No. 2),* a rapid and effective response could possibly remove 
bioterrorism from the category of WMD.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    We call it moving the decimal point to the left--diminishing the 
number of projected casualties. A rapid, effective response to a bio-
attack can reduce casualty figures from hundreds of thousands or tens 
of thousands, to thousands or perhaps hundreds. At that point, a bio-
attack would be more like a large truck bomb--certainly a tragedy, but 
not an event that will challenge governance and change the course of 
history. This effective response capability may also become a deterrent 
factor for a group who would seek to perpetrate an attack.
    We will never remove nuclear weapons from the category of WMD given 
the nature of such an attack, but may have the opportunity to do so 
with bio-weapons. It will be neither fast nor inexpensive, but it is 
possible, and it provides America with the best long-term biodefense 
strategy.
    Question 3. The President has stated that his administration will 
focus more on prevention of biological threats than has been done in 
the past, and robust intelligence will be key to such an effort.
    Do you think that the Nation's stockpile of medical countermeasures 
offers sufficient deterrent to actors considering using a biological 
weapon? If not, what more must be added to it?
    Answer. Any nation-state or non-state actor capable of producing a 
sophisticated biological weapon is also capable of producing a strain 
that would be resistant to the antibiotics currently maintained in the 
Strategic National Stockpile.\1\ This committee should be asking 
administration officials what plans they have to respond to attacks 
that use a strain of anthrax that has been made resistant to Cipro and 
Doxycyline--not what they are planning for in 2020, but what their plan 
is for 2013.
---------------------------------------------------------------------------
    \1\ My definition of a ``sophisticated biological weapon'' is one 
capable of producing the effects described in National Strategy for 
Countering Biological Threats, National Security Council, November 
2009, page 1. `` . . . could place at risk the lives of hundreds of 
thousands of people. The unmitigated consequences of such an event 
could overwhelm our public health capabilities, potentially causing an 
untold number of deaths. The economic cost could exceed one trillion 
dollars for each such incident.''
---------------------------------------------------------------------------
    It is foolhardy to believe that anyone contemplating a bio-attack 
on the United States would not go the extra step and attempt to make 
their agent resistant to the antibiotics in the Strategic National 
Stockpile. According to senior scientists at NIH, BARDA, DARPA, and the 
academic community, that extra step does not require Nobel Prize-
winning expertise--Mother Nature does it all the time. Furthermore, 
even if bioterrorists did not take the extra step of making their 
weapon resistant to our stockpiled antibiotics, there is great concern 
about the amount of medical countermeasures in the Strategic National 
Stockpile, and even more troubling, the capability to rapidly dispense 
them.
    As stated in the WMD Center's 2001 Report Card: ``A bio-response 
enterprise without adequate medical countermeasures is like an Army 
without bullets--it may look good on a parade ground, but has minimal 
value for National security.''
    Question 4. Securing high-containment biological laboratories was a 
key recommendation of your report.
    How key is the international component of this--how much should we 
be helping other nations secure their labs and build their public 
health capacity, given that pathogens simply do not respect borders?
    Answer. Pathogens don't respect borders, and people who are sick or 
are about to become sick can travel great distances before needing 
medical care. A small outbreak of disease can therefore quickly become 
a problem around the globe. Given this reality, it is helpful when a 
disease is diagnosed as close to the source of the outbreak as 
possible, and as early as possible in the outbreak. For example, the 
H1N1 pandemic of 2009 was definitively diagnosed in a military 
laboratory in San Diego, weeks after the outbreak had been going on in 
Mexico. If those weeks weren't wasted, and if the disease had been 
identified earlier, it could have made a great difference in vaccine 
availability in the United States and around the world. While some 
people have called that pandemic ``mild'' it was anything but for young 
people and for pregnant women.
    As far as security of public health laboratories around the world, 
it is not always the case that it is necessary or even possible to have 
the same levels of security as could be afforded in the United States--
such as laboratories in remote locations of third-world countries where 
extended electrical power disruptions are common. In addition, many of 
the diseases that are studied or cultured in public health laboratories 
are endemic in those countries. (See atch No. 3)*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    However, U.S. efforts to provide best practices and support for 
biosafety practices, for common-sense security, and for disease 
detection can only yield benefits to the United States because it will 
yield earlier detection of disease, less disease burden in that 
country, and the protection of U.S. contacts in those laboratories--
skilled laboratory workers who might otherwise be at needless risk of 
disease.
    Question 5. According to Bob Graham and Jim Talent, there may be a 
time period after an attack when a prepared, efficient response could 
limit the size and scope of the attack by orders of magnitude. For 
instance, a well-prepared nation can use the incubation period of a 
disease-causing agent to its people's advantage.
    What are some practical steps that can be taken by the Government 
to ensure that a prompt response with effective medical 
countermeasures, such as antibiotics and vaccination, can be improved 
and effectively deployed in the instance of such an attack?
    Answer. I recommend a focus on three methods for rapid dispensing 
of life-saving medical countermeasures (MCMs):
    1. Using pharmacies to dispense MCMs once the Federal Government 
        has provided them to States. (See atch No. 4)* More than 90 
        percent of Americans live within 5 miles of a pharmacy. The 
        incubation period of bioagents means that most people would be 
        able to drive (or walk) to their local pharmacies. These 
        facilities are designed for wholesale in the back door and 
        retail out the front. Plans would be needed to deliver MCMs to 
        shut-ins.
    2. Point-of-Dispensing (PODs). Open PODs (open to all), operated by 
        local public health offices have been tested in several cities, 
        and closed PODS (for select groups--such as employees of major 
        corporations) have also been tested in several locations.
    3. Several tests in major cities, including Philadelphia and 
        Minneapolis, have demonstrated that the U.S. Postal Service 
        could provide a rapid means for dispensing MCMs during a 
        crisis. However, if law enforcement officials are required to 
        escort each letter carrier, this method may be the least 
        desirable option currently being considered. Most law 
        enforcement officials I have talked with, see this as an 
        improper use of law enforcement assets during a crisis. Others 
        have recommended use of National Guard troops to escort the 
        letter carriers, which in my opinion, is a better option than 
        using law enforcement personnel.
    In addition, I recommend supporting the Federal Government's effort 
to develop a National capability for the collection of data on medical 
countermeasures used during public health emergencies. Collecting data 
on the safety and clinical benefit of medical countermeasures used 
during the response to a pubic health emergency is essential to guide 
response activities.
    Question 6a. Colonel Larson, the report notes that if we had a 
domestic catastrophic event, such as the detonation of a nuclear 
weapon, the Department of Homeland Security would be the lead Federal 
agency for consequence management. But the Department of Defense would 
likely need to play a major support role in responding to such a 
catastrophic event.
    As retired military, do you believe the DoD has adequate 
capablities now, and in the future, to respond to a significant WMD 
attack within a major city?
    Answer. No. See attach No. 5,* an article by the Honorable Paul 
McHale, former Assistant Secretary of Defense for Homeland Defense. 
Secretary McHale was a member of the Aspen WMD Study Group, and I know 
of no one better qualified to respond to this question.
    Question 6b. How well are the DHS, DoD, local, and State entities, 
prepared to work together and coordinate the response to such a 
catastrophic event?
    Answer. I am not qualified to answer this question, but 14 years' 
work in the field of homeland security leads me to believe that 
response capabilities vary widely across America's 3,000+ counties.
    Question 7. At least half-a-dozen Federal agencies are engaged in 
``biomonitoring,'' meaning they look for signs of infectious disease in 
air, water, or other media. The Department of Homeland Security is most 
known for its BioWatch program, a series of detectors in over 30 major 
U.S. cities that seeks to reduce the time to detection if a terrorist 
or naturally-occurring infectious agent were to be released into the 
air.
    If the biodefense budget were yours, how would you prioritize 
expenditures on biomonitoring in the context of all of the many other 
needs in the spectrum of dealing with the biological threat?
    Answer. There is no silver bullet for rapid detection/diagnosis, 
but both are critical components of any biodefense strategy. An 
effective and cost-efficient bio-monitoring system for the United 
States requires a combination of three elements: Well-trained 
infectious disease specialists working on the front line of emergency 
medicine; technologies that enable rapid detection/diagnosis at the 
point-of-medical-care; and environmental sensing.
    Of those three, I would give highest priority to educating and 
training those most likely to encounter the first seriously ill 
patients following an attack. The earliest possible detection and 
diagnosis are vital if medical countermeasures are to be successfully 
deployed. Many of those who are very ill will be sent to hospital 
emergency rooms, and yet few physicians are quick to recognize symptoms 
and signs of either anthrax or smallpox, let alone other rare diseases 
that could result from an attack. The challenge is to ensure that such 
patients are diagnosed as early as possible in an outbreak.
    One remedy would be for hospitals in large cities to contract to 
ensure that a specially-trained physician, knowledgeable about threat 
agents and containment policies, was immediately available to evaluate 
all suspect cases.
    The creation of a network of expertise such as this could result in 
a timely early deployment of countermeasures, isolation of patients and 
contacts, notification of public health authorities, vaccination, 
antibiotic distribution, etc. It could mean a difference of days or 
weeks from current passive methods and would be far less expensive and 
useful than uncertain automated detection devices.
    To assist the human element, rapid diagnosis at the point-of-
medical-care-delivery (ERs) is another top priority and emerging 
technology is showing great promise. Much of this research has been 
funded by the Department of Homeland Security Directorate of Science 
and Technology. Additionally, the Food and Drug Administration (FDA) is 
actively engaged in facilitating the development of diagnostic tests. 
For example, FDA has recently issued draft guidance for developing 
multiplexed microbiological in vitro nucleic acid-based diagnostic 
devices and is working with the Defense Threat Reduction Agency and the 
National Center for Biotechnology Information to establish a publicly 
available reference database for validating such devices. Multiplex in 
vitro diagnostic tests could be used to test for multiple pathogens 
simultaneously providing invaluable information when responding to a 
public health emergency. This research (and future operational 
capability) has the dual benefit of providing rapid detection and 
diagnosis for both naturally-occurring diseases and bioterrorism.
    While environmental sensing is a key element in the bio-monitoring 
triad, major problems that have plagued the BioWatch program--and its 
high cost, have raised serious questions about moving forward with 
Generation 3 BioWatch.
    From a 2011 study, National Academy of Sciences Committee on 
Effectiveness of National Biosurveillance Systems: BioWatch and the 
Public Health System, (National Research Council, ISBN-10: 0-309-13971-
6):

``The current BioWatch system needs better technical and operational 
testing to establish its effectiveness. It also needs better 
collaboration with public health systems to improve its usefulness. The 
proposed enhancements of the BioWatch system will be possible only if 
significant scientific and technical hurdles are overcome.
``Given the BioWatch system's serious technical and operational 
challenges and its costs, DHS should assess its effectiveness and frame 
program goals from a risk-management perspective; conduct systematic 
operational testing of current and proposed BioWatch technologies; 
establish an external advisory panel with technical and operational 
expertise; and strengthen collaboration and coordination with public 
health officials in BioWatch jurisdictions.''

    Based on what we know today, the best return on investment for 
detecting a bio-attack is to strengthen point-of-medical-care-delivery 
capabilities: Well-trained physicians supported by rapid diagnostic 
tools. If and when the scientific and operational challenges of 
environmental sensing are overcome, then it should complete the triad.
    Some of my colleagues will criticize my recommendation to focus on 
point-of-medical-care-delivery. They will say, ``That's too late! We 
need to detect an attack at the time of the attack--through 
environmental sampling.''
    And in a perfect world, they would be right. The earlier the 
detection, the better the response. I support continued efforts in 
research and development of environmental sensing, but not at the 
expense of more feasible programs that provide greater capability at 
lower cost. America cannot afford deployment of another homeland 
security technology that is not ready for prime time.
    Question 8a. A new field of bioforensics emerged after the anthrax 
attacks of 2001. The Department of Homeland Security now operates a 
major bioforensics laboratory, the National Bioforensic Analysis 
Center, used extensively by the Federal Bureau of Investigation.
    Do you think our National capability for bioforensics has grown 
sufficiently to meet the need?
    Answer. First, let me state that bioforensics capability consists 
of three parts: Intelligence collection and analysis, law enforcement 
(traditional gumshoe-type post-event investigation), and microbial 
forensics. My answers will only address the microbial forensics issues.
    The 2011 WMD Center Report Card stated: ``Despite extensive 
research, a scientifically and legally validated attribution capability 
does not yet exist for anthrax or virtually any other pathogen or 
toxin. There is not yet a networked system of National and 
international repositories to support microbial forensics, and existing 
mechanisms to facilitate collaboration among stakeholders worldwide are 
insufficient.''
    I am not aware of any major changes during the past 14 months. For 
more details, see: Pages 29-32 of WMD Center's 2011 Bio-Response Report 
Card available at www.wmdcenter.org.
    Question 8b. Do we need to be doing more than what we're doing, 
such as building a capable bioforensics workforce for the future?
    Answer. This is a very good question. I wish I had a very good 
answer, but I do not. As we stated in the WMD Center's Bio-Response 
Report Card in 2011: ``The WMD Center recommends that biological 
attribution be further examined by an independent organization, such as 
the National Academy of Sciences, to recommend where and how 
improvements can be made to this critical link in the bio-response 
chain.''
    Question 9. The interest among al-Qaeda and its affiliates in 
chemical, biological, radiological, and nuclear weapons remains a 
concern. Although they have not been successful in developing such 
weapons, active research programs or activities could be leveraged into 
weapons programs in light of instability in countries like Syria, Iran, 
and Pakistan.
    Do you view such possibilities as threats to overseas allies and 
American interests, or do you foresee a real possibility that this is a 
threat to the homeland itself?
    Answer. Nuclear and biological weapons are a threat to deployed 
U.S. forces and U.S. citizens and interests overseas, our allies, and 
our homeland. The warning in WORLD AT RISK remains just as relevant 
today, if not more so.

``The Commission believes that unless the world community acts 
decisively and with great urgency, it is more likely than not that a 
weapon of mass destruction will be used in a terrorist attack somewhere 
in the world by the end of 2013.
``The Commission further believes that terrorists are more likely to be 
able to obtain and use a biological weapon than a nuclear weapon.''

    Question 10a. Colonel Larsen, the WMD report goes to great length 
to discuss possible connections between nation states and nuclear 
terrorism. The report specifically calls out the nuclear programs of 
Iran, Pakistan, and North Korea.
    Are you concerned that nation states that have ties with terrorists 
groups could somehow provide these terrorists with nuclear expertise, 
or even worse, a fully operational nuclear device?
    Question 10b. Are current international efforts, such as 
inspections by the International Atomic Energy Agency, adequate for 
preventing nuclear and radiological terrorism? Do we need to do more?
    Answer. To get the materials needed to build a bomb, terrorists 
will not necessarily go where there is the most material; they will go 
where the material is most vulnerable. That makes global nuclear 
security only as strong as the weakest link in the chain. I agree with 
the assessment of the Nuclear Threat Initiative, that the best defense 
against catastrophic nuclear terrorism begins with securing weapons and 
materials in every country and at every facility where they are stored, 
but the work to secure the materials, does not end there. All states 
must accept responsibility, and all must participate in the global 
effort to combat this threat.
    The Nuclear Security Summits have played an important role to 
spotlight the threat and engage a broad spectrum of countries in 
solutions. What's needed for the long-term is a global system for 
tracking, accounting for, managing, and securing all weapons-usable 
nuclear materials (e.g., highly enriched uranium and separated 
plutonium). The current Nuclear Security Summit process is looking at 
how to work toward this longer-term assurance. To accomplish this, both 
the mandate and resources of the International Atomic Energy Agency 
(IAEA) would need to be strengthened, in order for the organization to 
play a much stronger role than it is currently able to do.
    Question 11. Your report states that ``the U.S. Government has 
limited ability to reduce intent of hostile actors and virtually no 
ability to reduce the capability of our enemies to produce such 
weapons.''
    Tell me about our lack of capability to reduce terrorists' 
capability--are sanctions and export control measures insufficient? 
Where is the weak link here?
    Answer. The weak link is the failure of many U.S. Government 
leaders to understand that the battle for nonproliferation of 
bioweapons has been lost. The ubiquity of deadly pathogens that exist 
in nature, combined with the global availability of dual-use equipment 
and knowledge required to weaponize these pathogens, means that any 
nation-state, many terrorist organizations, and on a smaller scale, 
even some lone wolf terrorists are capable of producing sophisticated 
bioweapons.
    For details on the ubiquity of pathogens available to 
bioterrorists, see atch No. 4.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Question 12. Only weeks after the terrorist attacks of September 
11, 2001, a Nation-wide anthrax attack sickened 22 people and took 5 
lives. Coming on the heels of 9/11, this hit us like a ton of bricks. 
The effects were significant, and yet could have been much worse.
    In what ways did these anthrax attacks increase activities toward 
prevention and response? You have alluded to a complacency--has 
complacency set in about the biological threat after 11 years of quiet 
on this front?
    Answer. Yes there was an increase in activities to the tune of $80+ 
billion, but the strategy and implementations plans could be best be 
described as: Ready! Shoot! Aim!
    Much of the money was wasted. For recommendations on resolving this 
problem, see my answer to Question 16.
    Complacency has definitely set in. Since 2008 more than 40,000 
State and local public health workers have been laid off.
    Question 13. In October 2011, once we became aware that we were 
dealing with an anthrax attack, as many as 32,000 people who may have 
been exposed initiated preventive measures in the form of antibiotics. 
Administration of antibiotics on such a large scale had never before 
been attempted by the public health system. Some things worked, others 
did not. Today, mass administration forms a cornerstone of our National 
strategy to mitigate the effects of a bioattack, because they are so 
difficult to prevent in the first place.
    Eleven years later, how would we do if this happened tomorrow? 
Would distribution and dispensing be as efficient, or more efficient, 
and would patient compliance be improved?
    Answer. For the various means that could be used to dispense MCMs, 
see answer No. 5.
    Regarding current capabilities to rapidly dispense MCMs during a 
crisis, I stand by the assessment of the WMD Center's 2011 Bio-Response 
Report Card, page 45.

``The inability to dispense potentially lifesaving medical 
countermeasures in the event of a large-scale bio-attack presents a 
serious risk of needless deaths, social disorder, and loss of 
confidence in Government. It is highly unlikely that antibiotics could 
be dispensed to a large population within 48 hours. The Federal role in 
assisting local authorities to achieve this critical mission is 
growing, but has been slow and uneven. No local jurisdiction has 
demonstrated the ability to rapidly dispense medical countermeasures on 
a large scale under realistic conditions. Meeting the 48-hour standard 
will not be possible without multiple and redundant dispensing 
strategies.''

    Question 14a. I noticed in reviewing your report that it makes very 
little mention of chemical terrorism. Chemical agents such as sarin, 
mustard gas, and other noxious materials have long been of interest to 
terrorists. We are all aware of the chemical weapon stockpiles in 
Syria, and the possibility that some of these could fall into the hands 
of terrorists.
    Regardless of the semantics over whether chemical weapons should be 
considered ``weapons of mass destruction,'' is there, or is there not, 
a continued threat of terrorism with chemical agents?
    Answer. World at Risk did not address chemical weapons. ``We 
focused on two categories of WMD--nuclear and biological--because they 
pose the greatest peril.''
    Most definitely, yes. An attack with chemical weapons would not be 
on the scale of a nuclear or sophisticated bio attack, but would be an 
extraordinarily effective weapon to terrorize a population. As one who 
personally experienced a chemical attack on Christmas Eve of 1969 in 
the Republic of South Vietnam, I fully appreciate the level of terror 
chemical weapons can produce. It took my unit about 15 minutes to 
realize the agent was only an irritant, similar to tear gas, but during 
that 15 minutes I was more frightened than at any time during my combat 
tour, including 400 missions in helicopter gunships.
    One should also consider the fact that I was in a combat zone and 
mentally prepared for attacks, well-trained for chemical defense, and 
had my protective mask on within seconds. Imagine the response of 
untrained, unprepared civilians in a subway station with no protective 
equipment. One chemical attack could terrorize an entire nation, but 
the number of physical casualties would be nowhere close to that of 
nuclear or sophisticated biological attacks.
    Question 14b. Are we taking the necessary measures to prevent the 
proliferation of chemical weapons and are we preparing our first 
responders and others to deal with the possibility of a chemical attack 
against our Nation?
    Answer. I am not an expert on the Chemical Weapons Convention or 
other U.S. and international chemical nonproliferation efforts. 
However, I am more concerned about the use of industrial chemicals in a 
terrorist attack, which we conveniently store in our major metropolitan 
areas, than in terrorists smuggling in sarin or VX. (In 2003 I was 
asked to develop and run two simulated chemical attacks for an EPA 
tabletop exercise. In the Terminal Risk exercise, we used industrial 
chemicals to attack the Detroit Metropolitan Airport and the Las Vegas 
strip.)
    In many large cities, first responders get actual training on a 
daily or at least weekly basis in response to industrial chemical 
incidents. These are generally small-scale, but are in effect good 
training exercises that require coordination of fire, EMS, 
environmental protection agencies, law enforcement, and public health 
from local, State, and Federal organizations. However, a large-scale 
event would prove far more challenging, particularly for the demands on 
emergency rooms.
    Question 15. My understanding is that one of the challenges the 
intelligence community faces when it comes to assessing the very 
existence of bioweapons programs is the ``dual-use'' issue. All of the 
beakers and test tubes and PCR machines that would be needed to develop 
a biological weapon are in use for legitimate purposes every day in 
laboratories and hospitals in almost every nation in the word.
    How serious a problem does the dual-use issue pose both for 
understanding the extent of the threat, and for preventing it?
    Answer. THIS IS THE MOST IMPORTANT PARAGRAPH IN THIS DOCUMENT.
    Members of Congress must understand that the battle against 
bioweapons proliferation has been lost. The ubiquity of deadly 
pathogens that exist in nature, combined with the global availability 
of dual-use equipment and knowledge required to weaponize these 
pathogens, means that any nation-state, many terrorist organizations, 
and on a smaller scale, even some lone wolf terrorists are capable of 
producing sophisticated bioweapons. These weapons ``could place at risk 
the lives of hundreds of thousands of people. The unmitigated 
consequences of such an event could overwhelm our public health 
capabilities, potentially causing an untold number of deaths. The 
economic cost could exceed one trillion dollars for each such 
incident.''\2\
---------------------------------------------------------------------------
    \2\ National Strategy for Countering Biological Threats, National 
Security Council, November 2009, page 1.
---------------------------------------------------------------------------
    Question 16. The Aspen report indicated that shrinking budgets for 
biodefense have left the Nation underprepared. While that may be true, 
I have to point out that we spend half-a-billion dollars each year on 
civilian biodefense, and that figure is more like $5 billion when you 
include other related programs that benefit biodefense. That's a lot of 
money, and I haven't seen an argument that convinces me that more money 
is needed; but rather, that the money we are spending needs to be spent 
more wisely.
    What are your recommendations for this?
    Answer. I completely agree with your assessment. America has wasted 
enormous sums of money on biodefense during the past decade.
    The highest priority for biodefense must be the development of a 
scientifically-based, operationally-sound strategy for biodefense, 
complemented by National plans that are fully integrated with State, 
local, and private-sector capabilities.
    While the National Security Council produced a biodefense strategy 
in November 2009, it largely focuses on international health and 
prevention efforts. However, no such strategy exists for bio-response 
capabilities. Furthermore, there is currently no National-level plan 
for a response to a bio-attack.
    I recommend the Obama administration put someone in charge of 
producing a strategy along with fully-integrated plans and spending 
programs. This will also identify spending priorities. This individual 
should have the authority, responsibility, and accountability for 
America's biodefense efforts and it should be their full-time job.
    Today, America has more than two-dozen Presidentially-appointed, 
Senate-confirmed individuals with some responsibilities for biodefense, 
but not one of them has it as a full-time job and no one is in charge.
    Without a senior leader in charge of biodefense and without 
scientifically-based, operationally-sound strategy for biodefense, 
complimented by National plans that are fully integrated with State and 
local efforts plus the private sector, I see no way for Congress to 
effectively appropriate funds for biodefense or perform critical 
oversight functions.
    The risk of bioterrorism is increasing while America's biodefense 
capabilities are significantly decreasing.

                                 <all>

</pre></body></html>
